'

Case 4:17-cv-04058-KES Documents Filed 04/25/17 Page 1 of 4 PagelD #: 31

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.
DENNIS KAEMINGK, AARON MILLER,
SD. BD OF PARDONS AND PAROLES,
DOUG CLARK, ROBERT DOOLEY,
SUSAN JACOBS, KIM LIPINCOTT, J.C.
SMITH, DUSTI WERNER,
DAKOTA PSYCHOLOGICAL SERVICES
LLC., JUSHUA J. KAUFMAN,

ORDER GRANTING MOTION TO
PROCEED IN FORMA PAUPERIS

Defendants.
Plaintiff, Haider Salah Abdulrazzak, is an inmate at the Mike Durfee
State Prison in Springfield, South Dakota. Plaintiff filed a pro se civil rights
lawsuit under 42 U.S.C. § 1983 and requested leave to proceed in forma
pauperis under 28 U.S.C. § 1915. Docket 1; Docket 2.
Under the Prison Litigation Reform Act (PLRA), a prisoner who “brings a
civil action or files an appeal in forma pauperis . . . shall be required to pay
the full amount of a filing fee.” 28 U.S.C. § 1915(b)(1). The court may, however,
accept partial payment of the initial filing fee where appropriate. Therefore,
U i

[w]hen an inmate seeks pauper status, the only issue is whether the inmate

pays the entire fee at the initiation of the proceedings or over a period of time

APPENDIX
A

1

Case 4:17-cv-04058-KES Documents Filed 04/25/17 Page 2 of 4 PagelD #: 32

under an installment plan. > n Henderson v. Norris, 129 F.3d 481, 483 (8th Cir.
1997) (quoting McGore v. Wrigglesworth, 114 F.3d 601, 604 (6th Cir. 1997)).
The initial partial filing fee that accompanies an installment plan is
calculated according to 28 U.S.C. § 1915(b)(1), which requires a payment of 20
percent of the greater of:
(A)

the average monthly deposits to the prisoner’s account; or

(B)

the average monthly balance in the prisoner’s account for
the 6-month period immediately preceding the filing of the
complaint or notice of appeal.

Plaintiff has reported average monthly deposits to his prisoner trust account of
$91.67 and an average monthly balance of $46.62. Docket 3. Based on this
information, the court grants plaintiff leave to proceed in forma pauperis
provided he pays an initial partial filing fee of $18.33, which is 20 percent of
$91.67. Plaintiff must pay this initial partial filing fee by May 25, 2017. If the
court does not receive payment by this deadline, this matter will be dismissed.
Plaintiff may request an extension of time if needed.
In addition to the initial partial filing fee, plaintiff must “make monthly
payments of 20 percent of the preceding month’s income credited to the
prisoner’s account.” 28 U.S.C. § 1915(b)(2). The statute places the burden on
the prisoner’s institution to collect the additional monthly payments and
forward them to the court as follows:
After payment of the initial partial filing fee, the prisoner shall be
required to make monthly payments of 20 percent of the preceding
month’s income credited to the prisoner’s account. The agency
having custody of the prisoner shall forward payments from the
prisoner’s account to the clerk of the court each time the amount
in the account exceeds $10 until the filing fees are paid.
2

' Case 4:17-cv-04058-KES Document 5 Filed 04/25/17 Page 3 of 4 PagelD #: 33

28 U.S.C. § 1915(b)(2). Therefore, after payment in full of the initial partial
filing fee, the remaining installments will be collected under this procedure.
The clerk of the court will send a copy of this order to the appropriate
financial official at plaintiffs institution. Plaintiff will remain responsible for
the entire filing fee, as long as he is a prisoner, even if the case is dismissed at
some later time. See In re Tyler, 110 F.3d 528, 529-30 (8th Cir. 1997).
Accordingly, it is ORDERED
1. Plaintiffs motion for leave to proceed in forma pauperis (Docket 2) is
granted. Plaintiff will make an initial partial payment of $18.33
by May 25, 2017, made payable to the Clerk, U.S. District Court. If
the initial partial filing fee is not received by the specified deadline,
the case will be dismissed.
2. After payment of the initial partial filing fee, plaintiffs institution will
collect the additional monthly payments in the manner set forth in
28 U.S.C. § 1915(b)(2), quoted above, and will forward those
installments to the court until the $350 filing fee is paid in full.
3. The clerk of the court is directed to send a copy of this order to the
appropriate official at plaintiffs institution.
4. The clerk of the court is directed to set a pro se case management
deadline in this case using the following text: May 25, 2017: initial
partial filing fee payment due.

3

^ Case 4:17-cv-04058-KES Document 5 Filed 04/25/17 Page 4 of 4 PagelD #: 34

5. Plaintiff will keep the court informed of his current address at all times. All
parties are bound by the Federal Rules of Civil Procedure and by the
court’s Local Rules while this case is pending.
Dated April 25, 2017
BY THE COURT:
/s/ "Karen <E. Scfreier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

4

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 1 of 16 PagelD #: 71

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.
DENNIS KAEMINGK, AARON MILLER,
SD. BD OF PARDONS AND PAROLES,
DOUG CLARK, ROBERT DOOLEY,
SUSAN JACOBS, KIM LIPINCOTT, J.C.
SMITH, DUSTI WERNER,
DAKOTA PSYCHOLOGICAL SERVICES
LLC., JUSHUA J. KAUFMAN, JOHN
DOE 1, JOHN DOE 2, JANE DOE,

ORDER GRANTING MOTION TO
AMEND, DENYING MOTION TO
APPOINT COUNSEL, DISMISSING
AMENDED COMPLAINT IN PART,
AND DIRECTING SERVICE

Defendants.
INTRODUCTION
Plaintiff, Haider Salah Abdulrazzak, is an inmate at the Mike Durfee
State Prison in Springfield, South Dakota. He filed a pro se civil rights lawsuit
under 42 U.S.C. § 1983, Docket 1, and now moves to amend his complaint
and moves the court to appoint him counsel. Docket 10; Docket 11. The court
grants Abdulrazzak’s motion and screens his amended complaint under 28
U.S.C. § 1915A. For the reasons stated below, the court dismisses
Abdulrazzak’s amended complaint in part and directs service in part.

appendix
B

Case 4:17-CV-04058-KES Document 13 Filed 07/14/17 Page 2 of 16 PagelD #: 72

FACTUAL BACKGROUND
Abdulrazzak was paroled on June 25, 2014. Docket 10-1 at 7. While on
parole, Abdulrazzak temporarily settled his civil case concerning immigration.
Id. After this settlement, on April 20, 2016, Dusti Werner, Abdulrazzak’s
parole agent, told him she was adding more restrictions to his original parole
agreement, even though he had not committed a new offense or violated his
parole. Id.
Under the new restrictions, Abdulrazzak was required to go through sex
offender treatment and admit guilt (it appears through a polygraph test) to his
original convictions. Id. at 4, 7. Abdulrazzak alleges that these restrictions are
not applied to U.S. citizens. Id. at 4. Abdulrazzak alleges that defendants did
not discuss these requirements with him before he was paroled, even though
they discussed them with other parolees who were U.S. citizens. Id. at 6.
Abdulrazzak told his parole agent he would not admit guilt because his
admission could be used against him to support his conviction or bring new
charges, including perjury. Id. at 7. Werner told Abdulrazzak that his parole
would be revoked if he did not admit his guilt. Id. at 4. Abdulrazzak alleges
that defendants tried to coerce him into admitting his guilt by denying him
entry into a treatment program for Post-Traumatic Stress Disorder (PTSD),
refusing to let him do laundry in the summer, keeping his GPS monitor on
after he passed two polygraph tests, charging him for services on parole, and
sending that bill to a collection agency. Id. at 7, 13.

2

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 3 of 16 PagelD #: 73

During this time, Abdulrazzak also alleges that defendants kept him
from accessing the courts. Id. at 15. He alleges that defendants denied him
access to the prison law library, paper, the internet, and email, so he could
not work on his immigration case or his habeas case. Id. They also would not
let him access his documents, though he states that Werner offered to let him
print them on her printer, and he refused. Id. at 18. Abdulrazzak missed the
deadline for filing an appeal because of these denials. Id. at 15.
Eventually, Abdulrazzak alleges that correctional officers took the flash
drive on which he stored his legal documents. Id. at 18. Unknown correctional
officers routinely inspected the lockers where Abdulrazzak’s flash drive was
stored, and they were the only people with access to the lockers. Id. at 19.
Abdulrazzak alleges that there were more valuable items in his locker that
were not taken. Id. at 20.
On November 2, 2016, Werner filed an allegation of a parole violation
against Abdulrazzak. Id. at 19. Because of this alleged violation, Abdulrazzak
was incarcerated in the Jameson Annex for 30 days. Id. On November 15,
2016, a hearing was held concerning this allegation, and Abdulrazzak was told
that he had no rights under the Fifth Amendment because he was a parolee.
Id. at 4. On March 13, 2017, the parole board upheld the decision, which
appears to be the revocation of Abdulrazzak’s parole. Id.
On April 24, 2017, Abdulrazzak filed a complaint under § 1983. In his
complaint and in a letter he later sent to the court, Abdulrazzak stated that he
wished to file an amended complaint. Docket 1 at 9; Docket 7. The court
3

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 4 of 16 PagelD #: 74

instructed Abdulrazzak that he had the right to amend his complaint and
ordered Abdulrazzak to file his amended complaint by June 8, 2017. Docket 9.
On May 24, 2017, Abdulrazzak moved to amend his complaint and attached a
proposed amended complaint to his motion. Docket 10; Docket 10-1. In his
amended complaint, Abdulrazzak raises seven claims, seeking declaratory and
injunctive relief as well as damages. Docket 10-1 at 9. The motion to amend is
granted.
LEGAL STANDARD
The court must accept the well-pleaded allegations in the complaint as
true and draw all reasonable inferences in favor of the non-moving party.
Schriener v. Quicken Loans, Inc., 774 F.3d 442, 444 (8th Cir. 2014). Civil rights
and pro se complaints must be liberally construed. Erickson v. Pardus, 551
U.S. 89, 94 (2007) (citation omitted); Bediako v. Stein Mart, Inc., 354 F.3d 835,
839 (8th Cir. 2004). Even with this construction, “a pro se complaint must
contain specific facts supporting its conclusions.” Martin v. Sargent, 780 F.2d
1334, 1337 (8th Cir. 1985); Ellis v. City of Minneapolis, 518 F. App’x 502, 504
(8th Cir. 2013). Civil rights complaints cannot be merely conclusory. Davis v.
Hall, 992 F.2d 151, 152 (8th Cir. 1993); Parker v. Porter, 221 F. App’x 481, 482
(8th Cir. 2007).
A complaint “does not need detailed factual allegations . . . [but] requires
more than labels and conclusions, and a formulaic recitation of the elements of
a cause of action will not do.” BellAtl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). “If a plaintiff cannot make the requisite showing, dismissal is
4

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 5 of 16 PagelD #: 75

appropriate.” Abdullah v. Minnesota, 261 F. App’x 926, 927 (8th Cir. 2008);
Beavers v. Lockhart, 755 F.2d 657, 663 (8th Cir. 1985). Under 28 U.S.C.
§ 1915A, the court must screen prisoner complaints and dismiss them if they
are (1) frivolous, malicious, or failf] to state a claim upon which relief may be
granted; or (2) seek[] monetary relief from a defendant who is immune from
such relief.” 1915A(b).
DISCUSSION
Abdulrazzak’s amended complaint raises seven claims under the First,
Fourth, Fifth, Sixth, Eighth, and Fourteenth Amendments. Docket 10-1. A
number of his allegations are conclusory and repetitive, and his claims are
often reiterated in multiple counts. The court has attempted to discuss each
claim within separate counts, even though Abdulrazzak makes similar
allegations throughout his amended complaint.
I.

Count I
In Count I, Abdulrazzak raises claims under the First, Fifth, Eighth, and

Fourteenth Amendments against South Dakota Secretary of Corrections (SD
DOC) Dennis Kaemingk, SD DOC Policy Maker Aaron Miller, the SD Board of
Pardons and Paroles (the Board), and the Director of the Board Doug Clark.
Docket 10-1 at 4. Abdulrazzak states that he brings these claims against
defendants “as municipalities” and alleges that there is a policy to
discriminate against him as a non-citizen of the United States. Id. He alleges
that the policy required him to admit his guilt and participate in sex offender
treatment, requirements that were not in his original parole agreement. Id.
5

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 6 of 16 PagelD #: 76

The defendants are not “municipalities.” Even if they were, a
municipality may only be liable for a violation of constitutional rights if the
violation was caused by its customs or policies. Crawford v. Van Buren Cty.,
Ark., 678 F.3d 666, 669 (8th Cir. 2012) (quoting Rynders v. Williams, 650 F.3d
1188, 1195 (8th Cir. 2011)). Abdulrazzak does not point to a custom or policy
that violated his rights. He argues that he was discriminated against as a non­
citizen and an Iraqi, but he alleges that the discrimination started two years
into his parole. He does not explain how his citizenship status or nationality
changed and caused defendants to begin discriminating against him. He also
alleges elsewhere that the parole requirements were added after and because
his immigration case was settled. Docket 10-1 at 6. Therefore, Abdulrazzak
fails to state a claim upon which relief may be granted, and his claim is
dismissed under 28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l).
II.

Count II
In Count II, Abdulrazzak raises claims under the First, Fifth, Eighth,

and Fourteenth Amendments against Warden Robert Dooley, Deputy Warden
Susan Jacobs, and Unit Staff Member Kim Lippincott. Docket 10-1 at 6.
Abdulrazzak claims that Dooley, Jacobs, and Lippincott violated his rights by
failing to discuss the requirements of parole that were subsequently added. Id.
He alleges that they discussed the parole requirements with United States
citizens. Id. He also alleges that if defendants had discussed these parole
requirements with him, he would have invoked his Fifth Amendment rights.
Id.
6

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 7 of 16 PagelD #: 77

In McKune v. Lile, 536 U.S. 24 (2002), a plurality of the Supreme Court
held that prison officials did not violate a prisoner’s Fifth Amendment rights
when they changed the prisoner’s privilege status level and moved him to a
maximum-security facility after he refused to participate in a sexual abuse
treatment program, which required him to admit all prior improper sexual
activities without guaranteed immunity. The Court found that these
consequences were not severe enough to constitute “compulsion” for purposes
of the Fifth Amendment right against self-incrimination. Id. There, the pontiff
complained he would be transferred and lose privileges, but the Court
observed that his decision would “not extend his term of incarceration” or
affect his parole eligibility. Id. at 38.
The Eighth Circuit Court of Appeals discussed McKune in Entzi v.
Redmann, 485 F.3d 998 (8th Cir. 2007). There, Entzi claimed that his
probation officer compelled him to be a witness against himself by filing a
petition to revoke his probation when it was discovered that Entzi had not
finished the sex offender treatment. Id. at 1001. The state did not revoke
Entzi’s probation, but Entzi did have to pay an attorney to defend him in the
revocation process. Id. at 1002. The Eighth Circuit found that this did not
constitute compulsion.
The Eighth Circuit found that, even assuming the probation officer’s
actions constituted compulsion, Entzi did not have a cause of action for
damages under § 1983. “[T]he general rule is that a person has no claim for
civil liability based on the Fifth Amendment's guarantee against compelled
7

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 8 of 16 PagelD #: 78

self-incrimination unless compelled statements are admitted against him in a
criminal case.” Id. (citing Chavez v. Martinez, 538 U.S. 760, 767 (2003)). The
“core guarantee” of the self-incrimination clause is evidentiary. Id. (citing
Chavez, 538 U.S. at 778). Although the court “left open the possibility that a
‘powerful showing’ might persuade [it] to expand the protection of the self­
incrimination clause to the point of civil liability,” an expansion of the clause
should not be implemented through money damages. Id. (quoting Chavez, 538
U.S. at 778) (citation omitted).
The Eighth Circuit found that Entzi had made no showing that
evidentiary protections were inadequate to protect his constitutional rights. Id.
at 1002-03. Here, Abdulrazzak alleges more serious consequences than paying
an attorney to defend him: he alleges his parole was actually revoked. This
was one of the consequences the Supreme Court stated may violate a
prisoner’s rights in McKune. See Bradford v. Mo. Dep't ofCorr., 46 F. App’x
857, 858 (8th Cir. 2002) (finding prisoner stated a claim under McKune by
claiming that defendants violated his constitutional rights by denying him
parole because of his refusal to participate in sex offender treatment). Because
the court is viewing this claim in the light most favorable to Abdulrazzak at
this stage, the claim is not frivolous or malicious and may state a cause of
action.
The court will next consider whether Abdulrazzak has stated a claim
against Dooley, Jacobs, and Lippincott. Abdulrazzak fails to allege facts
concerning how these individual defendants violated his rights. Based on their
8

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 9 of 16 PagelD #: 79

titles, it appears that defendants are prison employees, and such defendants
generally are not liable in claims concerning parole. See Munson v. Norris, 435
F.3d 877, 879-80 (8th Cir. 2006) (upholding dismissal of prisoner’s claims that
he was being forced to admit to crimes he was convicted of in sex offender
treatment because he sued prison officials who had no authority over prison
conditions). Therefore, Abdulrazzak fails to state a claim upon which relief
may be granted in Count II, and that claim is dismissed under 28 U.S.C.
§§ 1915(e)(2)(B)(ii) and 1915A(b)(l).
III.

Count III
In Count III, Abdulrazzak claims that his rights were violated because

defendants did not discuss the new parole requirements with him, and they
unconstitutionally added the new requirements without notice. In Figg v.
Russell, 433 F.3d 593 (8th Cir. 2006), a South Dakota parolee alleged that she
was illegally incarcerated after being detained for a parole violation. Figg
raised a claim against her parole agent because the agent offered her a parole
agreement without giving her notice that the terms applied to her previously
suspended sentence. Id. at 599. The Eighth Circuit found this function “so
associated with the function of the Parole Board that [the parole agent], too, is
cloaked in absolute immunity[,]” and dismissed the claim. Id. at 599-600
(citing SDCL 24-15-1.1).
Abdulrazzak has not alleged that Dusti Werner, J.C. Smith, and Jushua
Kaufman made an independent decision to add parole requirements. In fact,
in Count I, Abdulrazzak alleges that this is a policy of the parole board. The
9

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 10 of 16 PagelD #: 80

decisions are therefore “so connected to the quasi-judicial role the Parole
Board performed in granting parole in the first place, that they were but an
extension of that functionf,]” and defendants are absolutely immune.
Therefore, Abdulrazzak fails to state a claim upon which relief may be granted,
and Count III is dismissed under 28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l).
IV.

Count IV
In Count IV, Abdulrazzak claims that Kaufman denied him treatment for

PTSD in order to coerce him to agree to admit to his crimes, that he was
completely denied access to legal assistance and computers to do legal
research, and that he was denied the ability to do laundry multiple times.
Docket 10-1 at 13-14. The Eighth Circuit has found that a parolee states a
claim of deliberate indifference to serious medical needs by alleging that a
parole officer interfered with the parolee’s attempts to receive medical care.
See Jones v. Moore, 986 F.2d 251, 253 (8th Cir. 1993). Abdulrazzak alleges
that Kaufman denied him access to care for his PTSD. Therefore, Abdulrazzak
states a deliberate indifference claim against Kaufman, and this claim survives
screening.
Abdulrazzak also alleges that Kaufman denied him access to legal
assistance or computers to do legal research and the ability to do laundry.
Both of these claims fail because Kaufman is a psychologist. Docket 10-1 at
11. As such, Kaufman has no power over whether Abdulrazzak is allowed to
use a computer or do his laundry. Therefore, Abdulrazzak fails to state a claim
upon which relief may be granted, and these claims against Kaufman for
10

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 11 of 16 Page!D #: 81

denial of access to legal assistance on computers and laundry are dismissed
under 28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l).
V.

Count V
In Count V, Abdulrazzak alleges that Werner violated his constitutional

rights by denying him access to the courts. Abdulrazzak alleges that Werner
denied him access to his legal documents, denied him paper, and denied him
access to the law library or any computer. Docket 10-1 at 15. Abdulrazzak
alleges that he was working on his habeas petition and an immigration case,
and Werner caused him to miss a deadline for filing, although he does not
state for which case. Id.
“The Constitution guarantees prisoners a right to access the courts.”
White v. Kautzky, 494 F.3d 677, 679 (8th Cir. 2007). This requires “ ‘prison
authorities to assist inmates in the preparation and filing of meaningful legal
papers by providing prisoners with adequate law libraries or adequate
assistance from persons trained in the law.’ ” Id. (citation omitted). Although it
does not appear that Abdulrazzak was incarcerated in the penitentiary, his
amended complaint makes it clear that he was incarcerated in some form at
that time and that defendants had control over his access to the courts.
To prove a violation of the right of access to the courts, a prisoner must
establish that he has been injured by the violation. Id. at 680. Abdulrazzak
alleges that he missed a filing deadline because he was not allowed the
assistance described above. In fact, he alleges he was purposefully denied.

11

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 12 of 16 PagelD #: 82

Therefore, Abdulrazzak states a claim that he was denied access to the courts
by Werner.
VI.

Count VI
In Count VI, Abdulrazzak repeats the allegations concerning the

changes in his parole conditions discussed above. He adds that Werner and
Kaufman deprived him of his cell phone, video visitation with his parents, calls
to his niece, and Arabic-language media. As discussed above, the addition of
these conditions did not violate Abdulrazzak’s rights, and these conditions are
the type of condition that the Supreme Court found did not constitute
compulsion under the Fifth Amendment. See McKune, 536 U.S. at 24.
Therefore, Abdulrazzak fails to state a claim upon which relief may be granted,
and his claim is dismissed under 28 U.S.C. §§ 1915(e)(2)(B)(ii) and
1915A(b)(l).
VII.

Count VII
In Count VII, Abdulrazzak alleges that unknown correctional officers

denied him access to the courts. He alleges that his property, including a flash
drive which had his legal materials stored on it, was under the control of the
unknown correctional officers who had the only key to his locker, which was
locked at all times. Docket 10-1 at 18-19. He alleges that unknown
correctional officers intentionally “lost” his flash drive in order to stop him
from fighting deportation in his immigration case. Id. at 18. He also alleges
that this was done in order to end his habeas case and the uncovering of
unconstitutional actions by the state during his trial. Id. at 18-19. Finally,
12

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 13 of 16 PagelD #: 83

Abdulrazzak argues that it is unlikely that his flash drive was stolen by
another inmate because there were items far more valuable than the flash
drive in his locker that were not taken. Id. at 20.
“The taking of an inmate's legal papers can be a constitutional violation
when it infringes his right of access to the courts.” Goffv. Nix, 113 F.3d 887,
892 (8th Cir. 1997) (citation omitted). “[T]he destruction or withholding of
inmates' legal papers burdens a constitutional right, and can only be justified
if it is reasonably related to a legitimate penological interest.” Id. Defendants
have not been served and have not had a chance to justify their actions. At
this point, it is premature to dismiss Abdulrazzak’s claim. The court finds that
he states a denial of access to the courts claim upon which relief may be
granted against John Doe 1 and John Doe 2.
VII.

Motion to Appoint Counsel
Abdulrazzak moves the Court to appoint him counsel. Docket 11. “A pro

se litigant has no statutory or constitutional right to have counsel appointed
in a civil case.” Stevens v. Redwing, 146 F.3d 538, 546 (8th Cir. 1998). In
determining whether to appoint counsel to a pro se litigant’s civil case, the
district court considers the complexity of the case, the ability of the litigant to
investigate the facts, the existence of conflicting testimony, and the litigant’s
ability to present his claim. Id. Abdulrazzak’s claims are not complex, and he
appears able to adequately present his § 1983 claims at this time. Therefore,
his motion is denied.

13

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 14 of 16 PagelD #: 84

The Court is aware that this situation may change as litigation
progresses. As the Eighth Circuit Court of Appeals instructs, the court will
continue to be alert to the possibility that, because of procedural complexities
or other reasons, later developments in the case may show either that counsel
should be appointed, or that strict procedural requirements should, in
fairness, be relaxed to some degree.” Williams v. Carter, 10 F.3d 563, 567
(8th Cir. 1993).
Thus, it is ORDERED
1.

Abdulrazzak’s motion to amend (Docket 10) is granted.

2.

The clerks office shall refile Docket 10-1 as Abdulrazzak’s amended
complaint.

3.

Abdulrazzak’s deliberate indifference claim against Kaufman (part
of Count IV), his denial of access to the courts claim against Werner
(Count V), and his denial of access to the courts claim against John
Doe 1 and John Doe 2 (Count VII) survive screening under 28
U.S.C. § 1915A(b)(l).

4.

The remainder of Abdulrazzak allegations fail to state a claim upon
which relief may be granted, and these claims are dismissed under
28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l). Dennis Kaemingk,
Aaron Miller, SD. BD. of Pardons and Paroles, Doug Clark, Robert
Dooley, Susan Jacobs, Kim Lippincott, J.C. Smith, Dakota
Psychological Services LLC, and Jane Doe are dismissed as
defendants.
14

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 15 of 16 PagelD #: 85

5.

The Clerk shall send blank summons forms to Abdulrazzak so he
may cause the summons and amended complaint to be served
upon Kaufman, Werner, Doe 1, and Doe 2.

6.

The United States Marshal shall serve a copy of the Amended
Complaint (Docket 10-1), Summons, and this Order upon
defendants as directed by Abdulrazzak. All costs of service shall be
advanced by the United States.

7.

Defendants will serve and file an answer or responsive pleading to
the remaining claims on or before 21 days following the date of
service.

8.

Abdulrazzak will serve upon defendants, or, if appearance has been
entered by counsel, upon their counsel, a copy of every further
pleading or other document submitted for consideration by the
court. He will include with the original paper to be filed with the
clerk of court a certificate stating the date and that a true and
correct copy of any document was mailed to defendants or their
counsel.

15

Case 4:17-cv-04058-KES Document 13 Filed 07/14/17 Page 16 of 16 PagelD #: 86

9.

Abdulrazzak will keep the court informed of his current address at
all times. All parties are bound by the Federal Rules of Civil
Procedure and by the court’s Local Rules while this case is pending.

Dated July 14, 2017.
BY THE COURT:
/s/ Karen <E, Scfreier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

16

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 1 of 14 PagelD #: 440

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.
J.C. SMITH, DUSTI WERNER, JUSHUA
J. KAUFMAN, F/N/U BERTSCH, and
JOHN DOE 2,

AMENDED ORDER DENYING IN
PART AND GRANTING IN PART
MOTION TO AMEND AND
MISCELLANEOUS OTHER MOTIONS

Defendants.
<

INTRODUCTION
Plaintiff, Haider Salah Abdulrazzak, is an inmate at the Mike Durfee
State Prison in Springfield, South Dakota. He filed a pro se civil rights lawsuit
under 42 U.S.C. § 1983. Docket 1. Abdulrazzak was later granted permission
to amend his complaint. Docket 13. He now has filed multiple motions to
amend his complaint again. Dockets 17,18, 31, 44. The court grants
Abdulrazzak’s motions in part and denies the motions in part. The court also
directs service in part.
FACTUAL BACKGROUND
The pertinent facts are set forth in the initial screening order at docket
13.

APPENDIX
C

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 2 of 14 PagelD #: 441

LEGAL STANDARD
Under Rule 15(a) of the Federal Rules of Civil Procedure, a party may
amend his pleadings once without court authorization if the motion is made
within 21 days after service or within 21 days after service of a responsive
pleading. “In all other cases, a party may amend its pleadings only with the
opposing party’s written consent or the court’s leave. The court should freely
give leave when justice so requires.” Fed. R. Civ. P. 15 (a)(2). A motion to
amend may be denied when the motion would cause undue delay, is made in
bad faith or based on a dilatory motive on the part of the movant, or is futile.
Popoalii v. Corr. Med. Servs., 512 F.3d 488, 497 (8th Cir. 2008). Leave of court
is required here, because Abdulrazzak has previously amended his complaint.
Under 28 U.S.C. § 1915A, the court must screen prisoner complaints
and dismiss them if they are “(1) frivolous, malicious, or fail[] to state a claim
upon which relief may be granted; or (2) seek[] monetary relief from a defendant
who is immune from such relief.” 1915A(b).
DISCUSSION
Abdulrazzak has labeled the document at Docket 31-1 as his second
amended complaint. The court will screen this document to determine if the
motion to amend should be granted.1

1 Dockets 17 and 18 are captioned as motions to amend the complaint. Local Rule 15/1
requires any party moving to amend a pleading [to] attached a copy of the proposed amended
pleading to its motion to amend[.]” Because Abdulrazzak did not comply with this rule the
court denies his motions at amend at dockets 17 and 18. Furthermore, it appears he has
incorporated those changes into what he calls his second amended complaint at docket 31-1.

2

i

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 3 of 14 PagelD #: 442

|

I.

Count I
In Count I, Abdulrazzak raises claims under the First, Fifth, Eighth, and

Fourteenth Amendments against South Dakota Secretary of Corrections (SD
DOC) Dennis Kaemingk, SD DOC Policy Maker Aaron Miller, the SD Board of
Pardons and Paroles (the Board), and the Director of the Board Doug Clark.
Docket 31-1 at 4. Abdulrazzak states that he brings these claims against
defendants “as municipalities” and against the Parole Board members, who he
claims “adopted an unconstitutional arbitrary and discriminatory act.” Id. He
alleges that there is a policy to discriminate against him as a non-citizen of the
United States. Id. He alleges that the policy required him to admit his guilt
and participate in sex offender treatment, requirements that were not in his
original parole agreement. Id.
First, with regard to the claims against Kaemingk, Miller, and Clark, the
court addressed this claim previously in its order at Docket 13. The second
amended complaint still alleges that the defendants are “municipalities.” The
defendants are not “municipalities.” Municipalities are cities or towns—none of
these defendants are cities or towns. Even if they were, a municipality may
only be liable for a violation of constitutional rights if the violation was caused
by its customs or policies. Crawford v. Van Buren Cty., 678 F.3d 666, 669 (8th
Cir. 2012) (quoting Rynders u. Williams, 650 F.3d 1188, 1195 (8th Cir. 2011)).
Abdulrazzak does not point to a custom or policy that was adopted by a city or
town that violated his rights.

3

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 4 of 14 PagelD #: 443

Second, Abdulrazzak alleges that the Parole Board members “adopted
an unconstitutional arbitrary and discriminatory act by parole officer, where
unlike U.S. Citizens, she required me to participate in a sex offender treatment
and to admit the guilt almost 2 years into my initial parole release on
6/25/2014.” Docket 31-1 at 4. He alleges that defendants adopted such
custom to save the Department of Corrections money on rehabilitation
programming. Abdulrazzak does not identify an official policy or custom that
was adopted by the Parole Board. Instead, he references the actions of one
parole officer. He does not explain how his citizenship status or nationality
changed and caused the Parole Board members to begin discriminating
against him two years after his initial parole release. Therefore, Abdulrazzak
fails to state a claim upon which relief may be granted, and it would be futile
to allow him to amend Count I.

In Count II, Abdulrazzak raises claims under the First, Fifth, Eighth,
and Fourteenth Amendments against Warden Robert Dooley, Deputy Warden
Susan Jacobs, and Unit Staff Member Kim Lippincott. Docket 31-1 at 6.
Abdulrazzak claims that Dooley, Jacobs, and Lippincott violated his rights by
failing to discuss the requirements of parole that were subsequently added. Id.
He alleges that they discussed the parole requirements with United States
citizens. Id. He also alleges that if defendants had discussed these parole
requirements with him, he would have invoked his Fifth Amendment rights.

4

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 5 of 14 PagelD #: 444

Id. He adds no new allegations regarding these defendants as compared to his
first amended complaint.
As this court previously found, based on the titles of these defendants, it
appears that they are prison employees, and such defendants generally are
not liable in claims concerning parole. See Munson v. Norris, 435 F.3d 877,
879-80 (8th Cir. 2006) (upholding dismissal of prisoner’s claims that he was
being forced to admit to crimes he was convicted of in sex offender treatment
because he sued prison officials who had no authority over prison
conditions).Thus, it would be futile to allow Abdulrazzak to amend his
complaint to add this claim against Dooley, Jacobs and Lippincott.
Abdulrazzak moves to add defendants Board of Pardons and Paroles,
Parole Board Director, Parole Officer Supervisor and Parole Officer (Dusti
Werner) and Treatment Providers (Dakota Psychological Services, LLC, and
Joshua Kaufman) as named defendants in Count II. With regard to the Board
of Pardons and Paroles, it is well established that “ ‘in the absence of
consent[,] a suit in which the [s]tate or one of its agencies or departments is
named as [a] defendant is proscribed by the Eleventh Amendment.’ ” Egerdahl
v. Hibbing Cmty. Coll., 72 F.3d 615, 619 (8th Cir. 1995) (quoting Pennhurst
State Sch. & Hosp. v. Halderman, 645 U.S. 89, 100 (1984)). Thus, it would be
futile to add the Board of Pardons and Paroles as a named defendant.
With regard to the Parole Board Director and the Parole Officer
Supervisor, the proposed second amended complaint does not allege that they

5

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 6 of>14 PagelD #: 445

had personal involvement in the alleged deprivation of Abdulrazzak’s
constitutional rights. “A supervisor is not vicariously liable under 42 U.S.C.
§ 1983 for an employee’s unconstitutional activity.” White v. Holmes, 21 F.3d
277, 280 (8th Cir. 1994). Thus, it would be futile to add the two supervisors as
named defendants in Count II,
Next, the court will discuss the new allegations against the parole
officer. In McKune v. Lile, 536 U.S. 24 (2002) (plurality opinion), a plurality of
the Supreme Court held that prison officials did not violate a prisoner’s Fifth
Amendment rights when they changed the prisoner’s privilege status level and
moved him to a maximum-security facility after he refused to participate in a
sexual abuse treatment program, which required him to admit all prior
improper sexual activities without guaranteed immunity. Id. at 36. The Court
found that these consequences were not severe enough to constitute
“compulsion” for purposes of the Fifth Amendment right against self­
incrimination. Id. There, the plaintiff complained he would be transferred and
lose privileges, but the Court observed that his decision would “not extend his
term of incarceration” or affect his parole eligibility. Id. at 38.
The Eighth Circuit Court of Appeals discussed McKune in Bntzi v.
Redmann, 485 F.3d 998 (8th Cir. 2007). There, Entzi claimed that his
probation officer compelled him to be a witness against himself by filing a
petition to revoke his probation when it was discovered that Entzi had not
finished the sex offender treatment. Id. at 1001. The state did not revoke
Entzi’s probation, but Entzi did have to pay an attorney to defend him in the
6

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 7 of 14 PagelD #: 446

revocation process. Id. at 10( )2. The Eighth Circuit found that this did not
constitute compulsion. Id.
The Eighth Circuit fou nd that, even assuming the probation officer’s
actions constituted compulsion, Entzi did not have a cause of action for
damages under § 1983. Id. “ T]he general rule is that a person has no claim for
civil liability based on the Fifth Amendment's guarantee against compelled
self-incrimination unless coi npelled statements are admitted against him in a
criminal case.” Id. (citing Chavez v. Martinez, 538 U.S. 760, 767 (2003)). The
“core guarantee” of the self-incrimination clause is evidentiary. Id. (citing
Chavez, 538 U.S. at 778). Although the court “left open the possibility that a
‘powerful showing’ might persuade [it] to expand the protection of the self­
incrimination clause to the point of civil liability,” an expansion of the clause
should not be implemented through money damages. Id. (quoting Chavez, 538
U.S. at 778) (citation omitted).
The Eighth Circuit found that Entzi had made no showing that
evidentiary protections were inadequate to protect his constitutional rights. Id.
at 1002-03. Hgrev Abdulra2'2 ak alleges more.s6rious consequences than paying •
a^«bfney To:^«d2Kini$TieiklfegSf'liis^&rble was factually 'revoked. This

g^8f£fiK©S'M®Strte.

See Bradford v. Mo. Dep't of Corr., 46 F. App’x

857, 858 (8th Cir. 2002) (finding prisoner stated a claim under McKune by
claiming that defendants’ violated his constitutional rights by denying him
parole because of his refusal to participate in sex offender treatment). Because
7

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 8 of 14 Page ID #: 447

the court is viewing this claim in the light most favorable to Abdulrazzak at
this stage, the claim is not frivolous or malicious and may state a cause of
action. While defendants claim that Abdulrazzak has not provided the court
with all the facts regarding his claim and may be less than candid with the
court, at this stage the court can only consider the facts as alleged in the
complaint and cannot consider matters outside of the pleadingsf^^^^^‘JdmmoMSipb;#ffii^dJCpwt^handadd/fhe^pfrole" cpiQe^^ajhafflSd^eiendarif.

Finally, the second amended complaint also adds the treatment provider
as a named defendant. The second amended complaint, however, contains no
allegations that the treatment provider had the power to revoke Abdulrazzak’s
parole. Thus, it would be futile to allow an amendment of the complaint to add
the treatment providers as named defendants in Count II.

In Count III, it appears that Abdulrazzak is raising claims against his
parole officer/agent (Dusti Werner) and his parole agent supervisor (J.C.
Smith). He claims that his rights were violated because defendants revoked his
parole for failure to participate in sex offender treatment. The courts have
found, however, that participation in a sex offender treatment program, as a
condition of parole, does not violate an inmate’s constitutional rights. See
Roman v. DiGuglielmo, 675 F.3d 204 (3d Cir. 2012); Schnitzler v. Reisch, 518 F.
Supp. 2d 1098 (D.S.D. 2007). Thus, to the extent Abdulrazzak claims his

8

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 9 of 14 PagelD #; 448

rights were violated because he failed to participate in sex offender treatment,
his claim is futile.
. Abdulra^zalc may' also be
ipl®id^hfs#i^hrtl%ecause they revokedthis parole in “retalia|.ipjn_for-exercising
■

...f-vi

— ixik'FifthA'mendrnent right; to hot incriminate him self. As"discuss<bd about "
: regarding Count II, ..such an allegation is not futile and .the motion to amend' .
'Count -III ter add: th is claim 'again s i Werner and Smith is granted.
IV.

Count IV
In Count IV, Abdulrazzak claims that Kaufman denied him treatment for

PTSD in order to coerce him to agree to admit to his crimes, that he was
completely denied access to legal assistance and computers to do legal
research, and that he was denied the ability to do laundry multiple times.
Docket 31-1 at 13-14. As the court previously found, the claim of deliberate
indifference to serious medical needs and the denial of access to care claims
state claims upon which relief can be granted. To the extent Abdulrazzak’s
second amended complaint adds additional facts to these claims, the motion
to amend is granted.
V.

Count V
Abdulrazzak’s proposed second amended complaint does not make any

changes to Count V. For the reasons stated in docket 13, the court finds that
Abdulrazzak states a claim that he was denied access to the courts by Werner.

9

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 10 of 14 PagelD #: 449

VI.

Count VI
In Count VI, Abdulrazzak repeats the allegations concerning the

changes in his parole conditions discussed above regarding Counts II and III.
He adds that Werner and Kaufman deprived him of his cell phone, video
visitation with his parents, calls to his niece, and Arabic-language media. As
discussed above, the addition of these conditions did not violate Abdulrazzak’s
rights, and these conditions are the type of conditions that the Supreme Court
found do not constitute compulsion under the Fifth Amendment. See McKune,
536 U.S. at 24. The court previously found that the first amended complaint
failed to state a claim upon which relief may be granted, and dismissed this
claim under 28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l). Abdulrazzak’s
second amended complaint adds an allegation that defendants were
attempting to force him to admit guilt and that he lost some discretionary
restrictions. This claim is already addressed in the discussion regarding
Claims II and III and is repetitive. The motion to amend is denied.
VII.

Count VII
In Count VII, the court previously found that Abdulrazzak has properly

stated a denial of access to the courts claim upon which relief may be granted
against John Doe 1 and John Doe 2. Abdulrazzak now moves to add
defendant Bertsch to count VII. Docket 44. The court finds that the motion to
amend is proper and grants the motion to substitute Bertsch for John Doe 1.

10

Case 4:17-cv-0405B-KES Document 46 Filed 12/12/17 Page 11 of 14 PagelD #: 450

VIII. Motion to Respond to Answer and for Summary Judgment
Abdulrazzak moves the court to respond to defendants’ answer. A
response to an answer is not a recognized pleading and is not necessary.
Defendants did not plead a counterclaim in their answer, so no response is
needed.
Abdulrazzak also moves for summary judgment. The South Dakota Civil
Local Rules state “all motions for summary judgment must be accompanied by
a separate, short and concise statement of the material facts as to which the
moving party contends there is no genuine issue to be tried.” D.S.D. Civ. LR
56.1. Because the motion for summary judgment did not include a statement
of material facts, the motion is denied.
IX. Motion for Discovery
Abdulrazzak attempted to have the amended summons served on
defendant Joshua Kaufman. It was returned marked “RETURNED
UNSERVED” by the United States Marshals Service. Kaufman was formerly an
employee of Dakota Psychological Services and he contracted with the South
Dakota Department of Corrections to provide treatment for the State’s parolees
and inmates. It appears Kaufman has moved away from South Dakota.
Abdulrazzak has no contact information for Kaufman and as an incarcerated
inmate does not have the ability to locate him. Abdulrazzak requests that the
court order defendants to provide in a confidential memorandum a current
address for Kaufman to the U.S. Marshals Service. Defendants have not
responded to this motion. For good cause shown, the court grants
11

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 12 of 14 PagelD #: 451

Abdulrazzak’s motion and directs the Attorney General’s office to provide a
current address for Kaufman to the U.S. Marshals Service by December 22
2017.
Thus, it is ORDERED
1.

Abdulrazzak’s motions to amend (Dockets 31 and 44) are granted in
part and denied in part.

2.

Abdulrazzak’s motions to amend (Dockets 17 and 18) are denied as
moot.

3.

Abdulrazzak’s motion to discover the address of Kaufman (Docket
25) is granted.

4.

The clerks office shall refile Docket 31-1 as Abdulrazzak’s second
amended complaint.

5.

Abdulrazzak’s claims against Werner and Smith (Counts II and III)
of revoking his parole in retaliation for exercising his Fifth
Amendment right to remain silent, his deliberate indifference claim
against Kaufman (part of Count IV), his denial of access to the
courts claim against Werner (Count V), and his denial of access to
the courts claim against Bertsh (Count VII) survive screening under
28 U.S.C. § 1915A(b)(l).

6.

The remainder of Abdulrazzak allegations fail to state a claim upon
which relief may be granted, and these claims are dismissed under
28 U.S.C. §§ 1915(e)(2)(B)(ii) and 1915A(b)(l). Dennis Kaemingk,
Aaron Miller, SD. Board of Pardons and Paroles, Doug Clark, Robert
12

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 13 of 14 PagelD #: 452

Dooley, Susan Jacobs, Kim Lippincott, Dakota Psychological
Services LLC, Joseph Siemonsma, Robert Berthelson, Greg
Erlandson, and Myron Rau are dismissed as defendants.
7.

The Clerk shall send blank summons forms to Abdulrazzak so he
may cause the summons and second amended complaint to be
served upon J.C. Smith and Bertsch. The Clerk shall also send a
blank summons form to the Attorney General so he may provide the
address to the U.S. Marshal of Joshua J. Kaufman for service of the
summons and second amended complaint on Kaufman.

8.

The United States Marshal shall serve a copy of the second
amended complaint (Docket 31-1), Summons, and this Order upon
defendants as directed by Abdulrazzak. All costs of service shall be
advanced by the United States.

9.

Defendants will serve and file an answer or responsive pleading to
the remaining claims on or before 21 days following the date of
service.

10. Abdulrazzak will serve upon defendants, or, if appearance has been
entered by counsel, upon their counsel, a copy of every further
pleading or other document submitted for consideration by the
court. He will include with the original paper to be filed with the
clerk of court a certificate stating the date and that a true and
correct copy of any document was mailed to defendants or their
counsel.
13

Case 4:17-cv-04058-KES Document 46 Filed 12/12/17 Page 14 of 14 PagelD #: 453

11. Abdulrazzak will keep the court informed of his current address at
all times. All parties are bound by the Federal Rules of Civil
Procedure and by the court’s Local Rules while this case is pending.
12. Abdulrazzak’s motions to respond to answer and for summary
judgment (Docket 33) are denied.
Dated December 12, 2017.
BY THE COURT:

/ s / Karen CE. Schreier__________
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

14

Case 4:17-cv-04058-KES Document 66 Filed 01/26/18 Page 1 of 3 PagelD #: 593

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.
J.C. SMITH, DUSTI WERNER, JUSHUA
J. KAUFMAN, F/N/U BERTSCH, and
JOHN DOE 2,
Defendants.

ORDER GRANTING LEAVE
TO PROCEED IN FORMA
PAUPERIS ON APPEAL

Plaintiff, Haider Salah Abdulrazzak, is an inmate at the Mike Durfee
State Prison in Springfield, South Dakota. He filed a pro se civil rights lawsuit
under 42 U.S.C. § 1983. Docket 1. Abdulrazzak filed multiple motions to
amend his complaint. Dockets 17, 18, 31, 44. The court granted Abdulrazzak’s
motions to amend (Dockets 31 and 44) and screened Abdulrazzak’s second
amended complaint (Docket 31-1) dismissing it in part and directing service in
part. Docket 46. Abdulrazzak now appeals that order. Docket 58.
Under the Prison Litigation Reform Act (PLRA), a prisoner who “files an
appeal in forma pauperis . . . [is] required to pay the full amount of a filing
fee.” 28 U.S.C. § 1915(b)(1). This obligation arises “ ‘the moment the
prisoner . . . files an appeal. i » Henderson v. Norris, 129 F.3d 481, 483 (8th Cir.
1997) (quoting In re Tyler, 110 F.3d 528, 529-30 (8th Cir. 1997)). Therefore,
« i

[w]hen an inmate seeks pauper status, the only issue is whether the inmate

pays the entire fee at the initiation of the proceedings or over a period of time
under an installment plan.

Id. (quoting McGore v. Wrigglesworth, 114 F.3d

APPENDIX
D

Case 4:l7-cv-04058-KES Document 66 Filed 01/26/18 Page 2 of 3 PagelD #: 594

601, 604 (6th Cir. 1997)). “[Prisoners who appeal judgments in civil cases
must sooner or later pay the appellate filing fees in full.” Id. (citing Newlin v.
Helman, 123 F.3d 429, 432 (7th Cir. 1997)).
In Henderson, the Eighth Circuit set forth “the procedure to be used to
assess, calculate, and collect” appellate filing fees in compliance with the
PLRA. 129 F.3d at 483. First, the court must determine whether the appeal is
taken in good faith. Id. at 485 (citing 28 U.S.C. § 1915(a)(3)). Then so long as
the prisoner has provided the court with a certified copy of his prisoner trust
account, the court must “calculate the initial appellate partial filing fee as
provided by § 1915(b)(1), or determine that the provisions of § 1915(b)(4)
appiy. Id. The initial partial filing fee must be 20 percent of the greater of:
(A)
(B)

the average monthly deposits to the prisoner’s account; or
the average monthly balance in the prisoner’s account for
the 6-month period immediately preceding the filing of the
complaint or notice of appeal.

28 U.S.C. § 1915(b)(1). Nonetheless, no prisoner will be “prohibited from
appealing a civil or criminal judgment for the reason that the prisoner has no
assets and no means by which to pay the initial partial filing fee.” 28 U.S.C.
§ 1915(b)(4).
It appears that Abdulrazzak’s appeal is taken in good faith. By filing a
motion to appeal Abdulrazzak consented to the deduction of his initial partial
appellate filing fee and the remaining installments from his prisoner account.
Henderson, 129 F.3d at 484. Abdulrazzak did not file new prisoner trust
account statement. Id. As a result, the initial appellate partial fees must be

2

Case 4:17-cv-04058-KES Document 66 Filed 01/26/18 Page 3 of 3 PagelD #: 595

assessed as “$35 or such other amount that is reasonable, based on whatever
information the court has about the prisoner's finances.” Henderson, 129 F.3d
at 484. In the prisoner trust account report Abdulrazzak submitted for his
previous motion for leave to proceed in forma pauperis, he reported average
monthly deposits to his prisoner trust account of $91.67 and an average
monthly balance of $46.62. Docket 3. Based on this information, Abdulrazzak
may proceed in forma pauperis on appeal provided he pays an initial partial
appellate filing fee of $18.33, which is 20 percent of $91.67.
Thus, it is
ORDERED that Abdulrazzak may proceed in forma pauperis on appeal.
Abdulrazzak will make an initial partial appellate payment of $18.33 by
February 26, 2018, made payable to the Clerk, U.S. District Court.
IT IS FURTHER ORDERED that the institution having custody of the
Abdulrazzak is directed that whenever the amount in his trust account,
exclusive of funds available to him in his frozen account, exceeds $10,
monthly payments that equal 20 percent of the funds credited to the account
the preceding month shall be forwarded to the United States District Court
Clerk’s office pursuant to 28 U.S.C. § 1915(b)(2), until the appellate filing fee
of $505 is paid in full.
DATED this 26th day of January, 2018.
BY THE COURT:

/s/ “Karen ‘E. Scfreier__________
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE
3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-1213

Haider Salah Abdulrazzak
Plaintiff - Appellant
v.
J. C. Smith; Dusti Werner; Joshua J. Kaufman; F/N/U Bertsch; John Doe 2
Defendants - Appellees
Appeal from U.S. District Court for the District of South Dakota - Rapid City
(4:17-CV-04058-KES)
JUDGMENT
Before GRUENDER, MURPHY and KELLY, Circuit Judges.

The court has carefully reviewed the original file of the United States District Court and
t;

orders that this appeal be dismissed for lack of jurisdiction, as the appeal is premature.
February 06, 2018

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

appendix
E

Case 4:17-cv-04058-KES Document 78 Filed 02/16/18 Page 1 of 1 PagelD #: 644

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK

CIV 17-4058

Plaintiff,

CLERK’S DENIAL OF DEFAULT

vs.
J.C. SMITH, DUSTI WERNER, JOHN DOE 2,
JOSHUA J. KAUFMAN, and F/N/U
BERTSCH,
Defendants.

Plaintiff Haider Salah Abdulrazzak has requested entry of default against defendants
(Docket 75). Entry of default is appropriate “[w]hen a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defend, and that failure is shown by
affidavit or otherwise, the clerk must enter the party’s default.” Fed. R. Civ. P. 55 (a). Here,
defendants sought an extension to answer the second amended complaint (Docket 53). The
Court granted the state defendants until February 15, 2018 to file their answer (Docket 54). The
defendants filed their answer on January 17, 2018,
The Clerk denies plaintiffs request for entry of default.
Dated February 16, 2018

/s/Matthew W. ‘TfeCen
Clerk
U.S. District Court
400 S. Phillips Avenue, Room 128
Sioux Falls, South Dakota 57104
Matt_Thelen@sdd .uscourts. gov
Page 1 of 1

APPENDIX
F

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH
CIRCUIT
f.
No: 18-1213
Haider Salah Abdulrazzak
Appellant
v.
J. C. Smith, et al.
Appellees

(.

Appeal from U.S. District Court for the District of South Dakota - Rapid City
(4:17-CV-04058-KES)
ORDER
The petition for rehearing by the panel is denied.
i.

March 16, 2018

i.

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

appendix
G
i,

Case 4:17-cv-04058-KES Document 111 Filed 09/26/18 Page 1 of 1 PagelD #: 1182

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.

JUDGMENT

J.C. SMITH, in his individual and
official capacity; DUSTI WERNER, in
his individual and official capacity;
JOSHUA J. KAUFMAN, in his individual
and official capacity; F/N/U BERTSCH,
in his individual and official capacity;
and JOHN DOE 2, in his individual and
official capacity;
Defendants.
Pursuant to the Order Granting Defendants’ Motion for Summary
Judgment, it is
ORDERED, ADJUDGED, AND DECREED that judgment is entered
against plaintiff, Haider Salah Abdulrazzak, and in favor of defendants.
DATED this September 26, 2018.
BY THE COURT:

/s/ Karen <E. Scfireier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

APPENDIX
H

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 1 of 43 PagelD #: 1139

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.

ORDER GRANTING DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT

J.C. SMITH, in his individual and
official capacity; DUSTI WERNER, in
his individual and official capacity;
JOSHUA J. KAUFMAN, in his individual
and official capacity; F/N/U BERTSCH,
in his individual and official capacity;
and JOHN DOE 2, in his individual and
official capacity;
Defendants.
Plaintiff, Haider Salah Abdulrazzak, is an inmate at the Mike Durfee
State Prison in Springfield, South Dakota. He filed a pro se civil rights lawsuit
under 42 U.S.C. § 1983. Docket 1. Defendants now move for summary
judgment. Docket 81. Abdulrazzak opposes the motion. Docket 99.
Abdulrazzak has also filed various miscellaneous motions.
FACTUAL BACKGROUND
Viewing the evidence in the light most favorable to Abdulrazzak, the
facts are:
Abdulrazzak is a forty-three years old citizen of Iraq. See Dockets 82-11
and 101 at 1. He was admitted to the United States as a refugee on June 30,

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 2 of 43 PagelD #: 1140

2009. Id. A Minnehaha County Grand Jury indicted Abdulrazzak on 14 counts
of possessing, manufacturing or distributing child pornography in violation of
S.D.C.L. § 22-24A-3 on September 9, 2010. Docket 33-4. A jury later returned
a guilty verdict on all 14 counts. On December 20, 2011, Abdulrazzak was
sentenced to serve consecutively a custody sentence of three years, with two
years suspended, on the first six counts and of three years, with one year
suspended, on count seven. Docket 82-7. No sentence was imposed on counts
eight through fourteen. Id.
The Department of Homeland Security (DHS) issued an “Immigration
Detainer-Notice of Action” on January 17, 2012. See Dockets 82-14 and
86 J 4. The detainer stated that the local United States Immigration and
Customs Enforcement (ICE) Office had “initiated an Investigation to determine
whether [Abdulrazzak] is subject to removal from the United States.” Docket
82-14. DHS requested that the South Dakota State Penitentiary (SDSP)
“maintain custody of [Abdulrazzak] . . . beyond the time when [Abdulrazzak]
would have otherwise been released from your custody to allow DHS to take
custody of the subject.” Id.
Notice of Parole Conditions
Abdulrazzak was initially paroled on June 25, 2014 and transferred to
ICE custody under the Immigration Detainer. Dockets 10-1 at 7 and 86 | 5.
Prior to his release into ICE custody, Abdulrazzak signed his first Parole
Standard Supervision Agreement (2014 Agreement). The 2014 Agreement
included the following provision:
2

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 3 of 43 PagelD #: 1141

Upon release from any hold status I will return immediately by
phone to the SD Interstate Parole Office at 605-782-3153 and return
to SD as directed. Failure to do so will constitute a violation of
parole. Upon return to SD I will turn myself in to [Admission &
Orientation Unit] at the South Dakota State Penitentiaiy in Sioux
Falls, South Dakota for assessment and placement into the CTP
program.
Docket 33-2. The 2014 Agreement did not require Abdulrazzak to undergo sex
offender treatment. Id. It is undisputed that the 2014 Agreement referred to an
“assessment” upon return to the SDSP and before release into the community.
Docket 33-2.
Defendants allege that Abdulrazzak was initially not required to undergo
sex offender treatment because he faced possible deportation from the United
States. Docket 86 | 6. Defendants claim sex offender treatment during this
initial parole was premature and unnecessary. Id. Abdulrazzak disagrees. He
alleges that his risk criteria required that he complete Sex Offender Treatment
before being released on parole and that this requirement was hidden from
him. Docket 101 at 2. Abdulrazzak further alleges that defendants informed
other inmates, with the same risk criteria as Abdulrazzak, that they were
required to complete sex offender treatment prior to being released on parole.
Docket 31-1 at 6. Abdulrazzak alleges that if defendants had discussed these
parole requirements with him, he would have invoked his Fifth Amendment
rights. Id.
Abdulrazzak was released from the ICE hold on April 20, 2016, because
he temporarily settled his immigration case. Dockets 86 If 8 and 82-15. As
required under the 2014 Agreement, Abdulrazzak reported to the Admission 8s
3

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 4 of 43 PagelD #: 1142

Orientation Unit at the South Dakota State Penitentiary. Dockets 86 | 9 and
82-16. Dusti Werner was then assigned to serve as Abdulrazzak’s parole
agent. Docket 86 f 9.
Defendants allege that Abdulrazzak was required to have a Pre-Release
Psychosexual completed before he could be placed into the Community
Transition Program. Dockets 86 | 8 and 82-15. The 2014 Agreement even
referred to an “assessment” before release into the community. Docket 33-2.
Based on his conviction, Abdulrazzak met the criteria for being a sex offender
under SDCL § 22-24B-1. See Docket 84

3. Under South Dakota Department

of Corrections (SDDOC) Policy 1.4.A.3, SDDOC will “offer the Sex Offender
Management Program (SOMP) to offenders assessed as needing sex offender
treatment.” Id. If 4. The policy requires a psycho-sexual assessment to be
completed and supplied to the Board of Pardons and Paroles and the Warden.
Id. Abdulrazzak disputes that he was required to complete a pre-release
psychosexual assessment, because he contends that he was pre-release status
before his initial parole into ICE custody. Docket 101 at 2.
On April 27, 2016, Joshua Kaufman interviewed Abdulrazzak for the
interview portion of his Pre-Release Psychosexual Assessment. Dockets 82-1
and 84. The Pre-Release Psychosexual Assessment noted that Abdulrazzak
had not completed any form of institutionalized sex offender treatment and
recommended that Abdulrazzak “should be required to complete weekly, group
sex offender treatment for a period of 18 to 24 months.” Dockets 82-1 at 4.
The assessment also recommended that Abdulrazzak “should be required to
4

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 5 of 43 PagelD #: 1143

complete individualized sex offender specific treatment in the community prior
to his release.” Id.
On April 28, 2016, Abdulrazzak signed a “STOP contract” where he
agreed to “be completely honest and assume full responsibility for [his]
offense(s) and sexual behavior.” Docket 82-3. Abdulrazzak contends he never
agreed to complete STOP because it was not discussed when he was initially
paroled under the 2014 Agreement. Docket 101 at 3. Abdulrazzak alleges that
he first learned about STOP on April 27, 2016. Id.
On April 29, 2016, Abdulrazzak signed a new Parole Standard
Supervision Agreement (2016 Agreement). Docket 33-3. Like the 2014
Agreement, the 2016 Agreement included the provision that Abdulrazzak must
“participate, cooperate, and complete any programs as directed.” Id. This
agreement also included the following provision:
OTHER: 1. Register as a sex offender according to local and state
laws.
2. No contacts with victims or anyone under 18 years of age, unless
approved by treatment provider and parole agent in advance.
3. You shall not socialize, date, form a romantic or sexual
relationship, or marry anyone with physical custody of children
under 18 years of age.
4. You shall submit, at your own expense, to any program of
psychological or physiological assessment and monitoring at the
direction of parole agent or treatment provider[.] This includes, but
not limited to the polygraph, plethysmograph, and Abel Screen to
assist in treatment, planning and case monitoring.
5. You shall notify third parties of your complete criminal record,
permit the parole agent or treatment provider to confirm compliance
with this notification requirement and make any other notifications
as the parole agent deems appropriate. You shall inform all persons
with whom you have an established or ongoing relationship about
your complete criminal history.

5

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 6 of 43 PagelD #: 1144

6. You shall not go to or loiter near school yards, parks,
playgrounds, swimming pools, arcades, or other places primarily
used by children under the age of 18 years old.
7. You shall not be employed or participate in any volunteer activity
where you have contact with children under the age of 18 years old
unless approved by treatment provider and parole agent.
8. You will not own, operate, or possess any cell phone with a
camera, internet access, or text messaging.
9. No computer internet/on-line access or use without prior
approval of parole agent and treatment provider. Any internet use
will be subject to monitoring'at the discretion of the parole agent or
treatment provider.
Docket 33-3 at 2. Abdulrazzak contends this is a “modified” agreement and he
signed it under duress. Docket 101 at 3.
On May 17, 2016, Abdulrazzak signed an Individualized Supervision
Agreement for the South Dakota Department of Corrections Sex Offender
Management Program. Docket 82-2. A translator from A to Z World
Languages, parole agent Werner, treatment provider Joshua Kaufman, and
Abdulrazzak were present at this meeting. Docket 86 If 28. Defendants allege
that, by signing the Individualized Supervision Agreement, Abdulrazzak agreed
to “attend and participate in weekly individualized supervision meetings with
[his] treatment provider and parole officer.” Dockets 82-2 and 86 If 6. And
Abdulrazzak agreed that he would “honestly review all of my sexual behavior
including all of [his] sexual behaviors including all of [his] sexual
relationships.” Abdulrazzak also agreed to “take clinical polygraph
examinations at least every 3 months while [he is] in the community.” Dockets
82-2 and 86 % 17. Werner, assisted by a translator from A to Z World
Languages, also reviewed the 2016 Agreement. Docket 86 | 28. Under the
2016 agreement, Abdulrazzak agreed to “participate | cooperate | and
6

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 7 of 43 PagelD #: 1145

complete any programs as directed” and to “comply with all instructions in
matters affecting my supervision | and cooperate by promptly and truthfully
answering inquiries directed to me by a Parole Agent.” Docket 33-9.
Revocation of Parole
On October 27, 2016, Werner submitted a Violation Report that
Abdulrazzak was non-compliant in regards to his sex offender programming
and was subsequently terminated from community-based sex offender
programming.” Dockets 33-9 and 87 f 12. The Report noted that Abdulrazzak
had multiple instances in which he did not comply with directions given to
him such as completing some of his homework assignments.” Docket 33-9.
“He also left the unit when he was instructed that he could not.” Id. at 2.
Abdulrazzak contends that he complied with treatment and answered all
questions truthfully. Docket 101 at 4.
As part of the sex offender programing, Abdulrazzak was “assigned
homework which was to be reviewed with the program provider and Agent
Werner. Dockets 86

22, 82-5, 82-34 at 10-14. Werner alleges that there

were occasions where Abdulrazzak “failed to complete the assigned homework
in the time allotted’ and had to be “given more time to complete the
homework.” Dockets 86 f 23 and 82-34 at 13. And occasionally when
Abdulrazzak attempted to complete the assignments asked of him he “would
copy the examples instead of coming up with his own.” Docket 33-9.
At the direction of his treatment provider, Abdulrazzak was scheduled to
take “an instant offense polygraph” on October 19, 2016 “to determine where
7

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 8 of 43 PagelD #: 1146

his programming should go as he was continuing to deny and make no
progress.” Docket 33-9 at 2. The day before the exam, Abdulrazzak told
Werner that he was “ready for it” and “would pass no problem.” Dockets 86
.If 28 and 82-34 at 22-23. Abdulrazzak alleges he made these statements
under the threat of a parole violation. Docket 101 at 5.
At the scheduled exam, Abdulrazzak expressed concern that the
outcome of the polygraph would be used to bring about new criminal charges
or affect his ongoing habeas corpus proceeding. Dockets 82-24 and 101 at 5.
Abdulrazzak claims he “was informed that the outcome of said polygraph
would be used to bring new criminal charges.” Docket 101 at 5. Defendants
allege that the polygraph examiner “attempted to re-assure him that the exam
was solely for his treatment assessment and parole status.” Dockets 82-24
and 86

30. But the examiner determined that a polygraph exam should not

be administered “[b]ased on [Abdulrazzak’s] reservations and the fear of
violating [Abdulrazzak’s] civil rights.” Docket 82-24. The examiner explained
that “until he had this resolved with his attorney I could not ethically give him
the polygraph exam.” Id.
Abdulrazzak’s attorney later contacted Werner and stated that she was
“fine with him taking the polygraph.” Dockets 86 1 32 and 82-25.
Abdulrazzak’s attorney further advised Werner that Abdulrazzak would like to
take the polygraph. Docket 86 If 35 and Docket 82-25. Abdulrazzak was
provided with an opportunity to take a polygraph exam again on October 24,
2016. Docket 33-9 at 2. The Violation Report stated that “[djuring this exam,
8

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 9 of 43 PagelD #: 1147

Mr. Abdulrazzak blatantly failed to follow directions but the exam was still
valid and found that Mr. Abdulrazzak was deceptive in regards to questions
about committing the crime he was serving time for.” Id.
After the failed polygraph exam, Werner alleges that she verbally
directed Abdulrazzak not to leave Unit C. Docket 86 If 51. Abdulrazzak alleges
that he did not leave Unit C without permission. Docket 101 at 7. But
Abdulrazzak stated that he left Unit C on October 25, 2018 to attend his
driving license examination at 10:00. Docket 82-34 at 20-21.
Dakota Psychological Services (DPS) sent Abdulrazzak a treatment
termination letter dated October 31, 2016, stating that he “has not responded
to various treatment efforts provided so far DPS to help him work through his
denial and address the sexual problems indicated by his conviction.” Docket
33-9 at 4. Abdulrazzak claims that this letter “did not present any kind of
problems in my answer to defendant Kaufman.” Docket 101 at 6.
On March 13, 2017, there was a hearing before the Board of Pardons
and Paroles as to whether Abdulrazzak’s parole should be revoked. Docket 361. The Parole Board determined that Abdulrazzak violated both Conditions 10
and 13E of his Supervision Agreement. Docket 36-1. The Parole Board found
that “explanations offered by the inmate do not mitigate, justify or excuse
conduct while on supervision.” Id.
Access to Documents
After release from ICE custody, Abdulrazzak returned to SDSP with a
large box of legal documents and paperwork. Docket 82-15 at 2. Abdulrazzak
9

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 10 of 43 PagelD #: 1148

alleges that he was working on a state habeas petition and a motion to
reconsider/reopen his immigration case. See Docket 101 at 12-14.
Abdulrazzak alleges that he needed digital material on a CD for his
immigration case and a USB drive for his habeas case. Docket 101 at 10.
Abdulrazzak maintains that Werner knew he needed access to digital
information but denied him that access. Docket 31-1. As a result, Abdulrazzak
alleges that he missed deadlines, although he does not specify whether it was
in his state habeas corpus case or immigration case. Docket 10-1 at 15.
Werner alleges that she first learned about the box of legal materials
from an April 19, 2016 email. Dockets 86 J 58 and 85-15. Werner and
Abdulrazzak later discussed the legal materials at their first meeting on May
10, 2016. Werner’s notes read:
Agent Schaaf and I met with Haider at intake in Jameson today. He
was upset that he couldn’t get paperwork done for his immigration.
I told him I would get him the paperwork he needs, he said he keeps
it on a disc in his property. We explained to him that he cannot be
in the library as he stated he would go due to his sex offense and
cannot be on a computer since he is not allowed to use the internet.
He stated he needed it to get his paperwork completed as his
handwriting is not good. He went back and forth on his story about
his paperwork being due Friday, then Thursday, then 30 days. He
also kept stating that we were keeping him from filing his legal
paperwork. He was explained that he may complete his paperwork,
but could not use a computer to do so. To assist him, I requested
that his paperwork in property be moved to Unit C for him to work
on . I also told him that I would pick him up Tuesday morning for
our appointment and bring him here, that if I could get him an ICE
appointment, I would bring him there after. He also requested I set
up an appointment [sic] with Julie Hofer, his public advocate that
day. I told him I would try to get in contact with her. He was placed
on GPS by the Glory House as I was leavign [sic].

10

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 11 of 43 PagelD #: 1149

Docket 82-28. Abdulrazzak alleges that he was never allowed access to his
digitally stored legal documents. Docket 101 at 9.
After their initial meeting, Werner contacted the Sioux Falls ICE office.
Dockets 86

87 and 82-38. In a May 10, 2016 email to Deportation Officer

Darin Gergen, Werner indicated that she “would like to know the next steps in
regards to Mr. Abdulrazzak as I am not familiar with the ICE process and how
goes about getting a work permit.” Dockets 86 f 87 and 82-38. Werner does
not claim that she ever asked about Abdulrazzak’s immigration case or any
possible deadlines.
Werner also contacted Abdulrazzak’s public advocate Julie Hofer. Hofer
was appointed to represent Abdulrazzak in his state habeas corpus case.
Docket 82-8 at 2. Hofer informed Werner that “All the paperwork she needed
for his legals had been filed a year and a half ago.” Docket 86 % 68. Hofer
stated that there were “no more deadlines and the information [Abdulrazzak]
is tiying to get to her (his personal arguments) will not be what she uses as
her argument.”
Werner contacted Kingdom Boundaries about supervising Abdulrazzak’s
computer use. Dockets 86 U 79 and 82-20.' The Kingdom Boundaries’
computer was available on July 7, 2016. Id. Werner also consulted the Sex
Offender Management Program in an attempt to find a way for Abdulrazzak to
use a computer. Docket 86 If 67.
At a May 31, 2016 meeting, Abdulrazzak asked Werner for more hours
to use the Department of Labor computer. Dockets 86 | 69 and 82-32. Werner
11

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 12 of 43 PagelD #: 1150

responded that “[i]f his lawyer verified that he needed the 3 days that he
requested to work on his argument” she “would give him the time.” Id. On
June 7, 2016, Werner again contacted Hofer and stated that they needed to
figure out how to get Abdulrazzak to a computer that did not violate his parole
agreement. Dockets 86

70 and 82-19. Werner again asked if there were any

impending deadlines and Hofer responded that there were no upcoming
deadlines. Dockets 86

72 and 82-37. At some intervening time, Abdulrazzak

went to the Department of Labor and learned he could not use its computers
because they are for job searches. Id.
At a June 14, 2016 meeting, Abdulrazzak asked Werner for three more
hours for community use. Dockets 86 f 73 and 82-32. Werner denied the
request explaining that there was nowhere appropriate for Abdulrazzak to use
a computer in the community. Id. Werner provided Abdulrazzak two options:
Abdulrazzak could complete his work by hand as there was no need for it to be
typed or Abdulrazzak could use a computer under the supervision of his
lawyer to finish up his work. Dockets 86 ^ 74 and 82-32.
At a June 21, 2016 meeting, Abdulrazzak told Werner that he filed a
lawsuit to address his legal access issues. Dockets 86 | 77 and 82-29. Werner
reminded Abdulrazzak that she would allow him to use a computer under
appropriate supervision, such as under the supervision of his lawyer. Id.
At a July 12, 2016 meeting, Abdulrazzak informed Werner that he was
“done with his argument” and therefore “didn’t need to ask about computer
use again.” Dockets 86 | 85 and 82-29.
12

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 13 of 43 PagelD #: 1151

Werner maintains that she was not aware of any deadline missed in his
state habeas proceed or immigration case. Docket 86

82, 96. Werner

further alleges that, by signing the Parole Supervision Agreement on April 29,
2016, Abdulrazzak expressly agreed that he would not be allowed any
computer internet access without prior approval of his parole agent and
treatment provider. Docket 33-3. The agreement also stated that “any internet
use would be subject to monitoring at the discretion of the parole agent or
treatment provider.” Id. Abdulrazzak contends these restrictions were added
because he would not admit guilt. Docket 101 at 9. Abdulrazzak further
alleges that he signed the 2016 Agreement under threat of a parole violation.
Id.
Loss of USB Memory Flash Drive
Abdulrazzak alleges that Bertsch and John Doe 2 intentionally lost
Abdulrazzak’s legal materials created during Abdulrazzak’s two years on
parole. Docket 47. Abdulrazzak claims this was done to hinder his ability to
fight his immigration case and enable the government to deport him to Iraq.
Id. Abdulrazzak alleges that the USB drive was located in a black bag stored
“in the outside locker at Unit C” during the time he was in the Community
Transition Program, which was from April 20, 2016 until November 2, 2016.
Dockets 31-1 and 101 at 16. Abdulrazzak stated, “It makes no sense that my
USB flash memory drive would be accidentally (lost or stolen) without the staff
consent since those officers reasonably would be the only people who would
have access to my outside locker, taking in consideration that the lost was
13

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 14 of 43 PagelD #: 1152

selective in nature . . . .” Docket 47 at 20. Abdulrazzak alleges that there were
more valuable items in his locker that were not taken. Id.
Defendant Bertsch alleges that she was not working in Unit C between
April 20, 2016 until November 2, 2016 and therefore was not in charge of
Abdulrazzak’s property. Docket 85 | 7. At that time, Bertsch served as a Unit
Manager of the Special Housing Unit on the “Hill” at the SDSP. Id. J 8. Bertsch
also contends she did not “rotate out to Unit C” until December 2016. Bertsch
denies any knowledge of any “black bag” or a USB drive. Id. |Tf 9, 10. Bertsch
contends that her only involvement was signing the “Prohibited Property,
Disposition of’ sheet used in connection with disposition of certain items of
Abdulrazzak’s personal belongings not allowed inside the SDSP. Dockets 85
1f 2 and 82-16. The only prohibited items referred to in the sheet are a cell
phone and charger and $1.18. Docket 82-16.
DISCUSSION
I.

Motion to Refile Interrogatories and Requests for Admission
Abdulrazzak asks this court to accept his interrogatories and requests for

admissions for filing. Docket 51. Abdulrazzak attempted to file his
interrogatories and requests for admission on December 7, 2017. The Clerk of
Court returned the interrogatories and requests for admission along with a
letter explaining D.S.D. Civ. LR 26.1(A). Under D.S.D. Civ. LR 26.1(A),
“depositions, interrogatories, requests for documents, requests for admissions,
and answers and responses thereto must not be filed.” Thus, Abdulrazzak’s
motion to refile (Docket 51) is denied.
14

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 15 of 43 PagelD #: 1153

II.

Motion to Appoint Counsel
Abdulrazzak moves the Court to appoint him counsel. Docket 56. “A pro

se litigant has no statutory or constitutional right to have counsel appointed
in a civil case.” Stevens v. Redwing, 146 F.3d 538, 546 (8th Cir. 1998). In
determining whether to appoint counsel to a pro se litigant’s civil case, the
district court considers the complexity of the case, the ability of the litigant to
investigate the facts, the existence of conflicting testimony, and the litigant’s
ability to present his claim. Id. Abdulrazzak’s claims are not complex, and he
appears able to adequately present his § 1983 claims. Therefore, his motion
(Docket 56) is denied.
III.

Motion to Reconsider Amended Order Denying in Part and Granting
in Part Motion to Amend and Miscellaneous Other Motions
Abdulrazzak moves this court to reconsider its Amended Order Denying

in Part and Granting in Part Motion to Amend and Miscellaneous Other
Motions filed on December 17, 2017 (Docket 46). Docket 57. But before the
court ruled on the motion to reconsider, Abdulrazzak filed a notice of
interlocutory appeal as to the same December 17, 2017 order. Docket 58. The
court stayed this case pending resolution of Abdulrazzak’s interlocutory appeal.
Docket 71. On March 26, 2018, the Eighth Circuit dismissed the appeal for
lack of jurisdiction (Docket 74) and declined a rehearing by panel (Docket 97).
The court now lifts the stay (Docket 71) and takes up Abdulrazzak’s motion to
reconsider (Docket 46).
A district court’s decision on a motion for reconsideration rests within
its discretion. Hagerman v. Yukon Energy Corp., 839 F.2d 407, 413 (8th Cir.
15

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 16 of 43 PagelD #: 1154

1988).

u <

Motions for reconsideration serve a limited function: to correct

manifest errors of law or fact or to present newly discovered evidence.

9 99

Id. at

414 (quoting Rothwell Cotton Co. v. Rosenthal & Co., 827 F.2d 246, 251 (7th
Cir.), as amended, 835 F.2d 710 (7th Cir. 1987)). The court has reconsidered
its order and attempted to discuss each claim within separate counts despite
significant overlap.
A. Count I - Discrimination
In Count I, Abdulrazzak asserts claims under the First, Fifth, Eighth,
and Fourteenth Amendments against South Dakota Secretary of Corrections
(SD DOC) Dennis Kaemingk, SD DOC Policy Maker Aaron Miller, the SD Board
of Pardons and Paroles (the Board), and the Director of the Board Doug Clark.
Docket 31-1 at 4. Initially, Abdulrazzak stated that he brings these claims
against defendants “as municipalities.” In his motion to reconsider,
Abdulrazzak explains that his claim against defendants “as municipalities”
was based on a misunderstanding of the word municipalities. Docket 57 at 2.
The court rescreens his claim against these defendants.
Abdulrazzak alleges that Kaemingk, Miller, the Board, and Clark
discriminated against him as a non-citizen by requiring him to admit his guilt
and participate in sex offender treatment, requirements that were not in his
original parole agreement. Docket 31-1 at 4. Abdulrazzak claims that these
parole requirements were added later because his immigration case was
settled. Other offenders with the parole requirement of admitting guilt learn of
the requirement earlier than two years into their parole. Docket 57 at 3.
16

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 17 of 43 PagelD #: 1155

Abdulrazzak claims that Kaemingk, Miller, the Board, and Clark had access to
the COMS system and they failed to take action to correct the events that led
to his parole revocation. Docket 57 at 2.
Abdulrazzak fails to demonstrate how this alleged discrimination violated
his First, Fifth, or Eighth Amendment rights. Although pro se complaints are to
be construed liberally, “they still must allege sufficient facts to support the
claims advanced.” Stone v. Harry, 364 F.3d 912, 914 (8th Cir. 2004). The court
is not required to construct a legal theory that assumes facts which have not
been pleaded. Id. Thus, Abdulrazzak fails to state a claim under the First, Fifth,
or Eighth Amendments in Count I.
As to the Fourteenth Amendment claim, Abdulrazzak now alleges a
“class of one” Equal Protection claim, which was recognized by the Supreme
Court in Village of Willowbrook v. Olech, 528 U.S. 562 (2000) (per curiam).
Docket 57 at 5. The Eighth Circuit applied the class of one analysis to a prison
inmate who alleged that he was being discriminated against because the
parole board denied him parole while granting parole to similarly situated
inmates. Nolan v. Thompson, 521 F.3d 983, 989 (8th Cir. 2008). Because
Nolan did not allege he was a member of a protected class or that his
fundamental rights had been violated, he had to show that “the Board
systematically and ‘intentionally treated [him] differently from others similarly
situated and that there is no rational basis for the difference in treatment. > »
Id. (quoting Olech, 528 U.S. at 564). To do this, Nolan had to “ ‘provide a
specific and detailed account of the nature of the preferred treatment of the
17

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 18 of 43 PagelD #: 1156

favored class,’ especially [because] the state actors exercise broad discretion to
balance a number of legitimate considerations.” Id. at 990 (quoting Jennings v.
City of Stillwater, 383 F.3d 1199, 1214-15 (10th Cir. 2004)).
At the summary judgment stage, the court held that Nolan failed to
provide the evidence necessary to meet his burden because he did not
demonstrate that the board “intentionally discriminated against him or even
denied him parole on an irrational basis.” Id. The board had consistently given
legitimate reasons for denying parole. Id. The record also lacked “sufficient
evidence about Nolan's own parole file to enable a meaningful comparison
between him and those he claims are similarly situated.” Id. Even though
Nolan provided a spreadsheet listing the names of approximately twenty other
inmates, together with their races, the names of their offenses, sentence length,
time served, parole hearing dates, and release dates[,]” the court found that
this was insufficient for the court to meaningfully compare Nolan with other
inmates. Id.
Under the analysis in Nolan, Abdulrazzak fails to state an Equal
Protection claim. Abdulrazzak provides no specific examples of others who were
similarly situated but treated differently. Although Abdulrazzak sets forth facts
suggesting pretext on defendants’ part, he has not provided a spreadsheet as
Nolan did, much less a specific and detailed account of the nature of the
preferred treatment of the favored class,” which the Nolan court held was
necessary to support an Equal Protection claim. Id. Abdulrazzak only sets forth
conclusory allegations that defendants “will inform other individuals (U.S.
18

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 19 of 43 PagelD #: 1157

citizens) who their conviction circumstances similar to mine about the
programing requirement prior to their release on parole and not 2 years later
without a parole violation or change in the allegations of their conviction.”
Docket 57 at 3.
Even if the court found adequate specificity to state a valid Equal
Protection claim, a prisoner must allege facts demonstrating that prison
officials intentionally treated him differently than similarly situated inmates.
Nolan, 521 F.3d 989-90. Abdulrazzak alleges that defendants admit that they
did not discuss the treatment requirements until after his initial parole on May
17, 2016. But this does not demonstrate that prison officials intentionally
treated him differently. Abdulrazzak makes no such allegation. Thus,
Abdulrazzak’s Equal Protection claim fails.
In Count I, Abdulrazzak also alleges that Greg Erlandson and Myron
Rau violated Abdulrazzak’s substantive due process rights by adopting the
parole officer’s report when they knew Abdulrazzak was invoking his Fifth
Amendment rights. Docket 57 at 4. But members of the parole board are
“ ‘absolutely immune from suit when considering and deciding parole
questions.’” Figg v. Russell, 433 F.3d 593, 598 (8th Cir. 2006) (quoting
Patterson v. VonRiesen, 999 F.2d 1235, 1238-39 (8th Cir. 1993)).
After reconsideration, the court finds that Abdulrazzak fails to state a
claim upon which relief may be granted in Count I.

19

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 20 of 43 PagelD #: 1158

B. Count II — Notice of Parole Conditions
In Count II, Abdulrazzak asks this court to reconsider his claims against
defendants that did not survive screening and to consider his Equal Protection
claims as a “class of one.” Docket 57 at 7. Abdulrazzak reiterates that Warden
Dooley, Deputy Warden Susan Jacobs, Unit Staff Member Kim Lippincott,
parole officers, and treatment providers are members of the Sex Offender
Management Program (SOMP) team and were therefore personally involved in
failing to inform him of the treatment requirements. This is not new evidence.
Abdulrazzak alleged in his second amended complaint that these defendants
are members of the SOMP team. Docket 31-1 at 6. In its order at Docket 46,
the court found that Abdulrazzak failed to state a claim against Dooley, Jacobs,
Lippincott, the Board, Clark, Dakota Psychological Services, LLC, and Joshua
Kaufman. Abdulrazzak claims no error of law or fact or newly discovered
evidence. After reconsideration, the court finds that Abdulrazzak fails to state a
claim upon which relief may granted in Count II against defendants except the
claim it previously found survived screening against parole officer Werner. See
Docket 46 at 5.
Even considering Count II as a “class of one,” Abdulrazzak fails to state a
claim for the same reasons stated above in Count I. Abdulrazzak fails to
provide specific examples of others who were similarly situated but treated
differently. To state a valid Equal Protection claim a prisoner must allege facts
demonstrating that prison officials intentionally treated him differently th an
similarly situated inmates. Nolan, 521 F.3d 989-90. Abdulrazzak fails to allege
20

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 21 of 43 PagelD #: 1159

that defendants intentionally treated him differently than similarly situated
inmates. After reconsideration, the court finds that Abdulrazzak fails to state a
“class of one” claim.
C. Count III - Retaliation
In Count III, Abdulrazzak asks this court to reconsider his allegations
against Werner and J.C. Smith. Docket 57 at 7. Abdulrazzak’s claim that
Werner and Smith revoked his parole in retaliation for exercising his Fifth
Amendment right to not incriminate himself already survived screening. See
Docket 46. In his motion to reconsider, Abdulrazzak now alleges that Werner
and J.C. Smith violated his right to equal protection because defendants
exceeded their authority when they waited two years to impose a treatment
requirement without a parole violation or change in allegation of conviction.
Abdulrazzak states, “the allegation is not against. . . imposing the treatment
itself, rather ... the timing of imposing the treatment by defendants 2 years
. . . into my parole rather than prior to my release on parole[.]” Docket 57 at 7.
But in the court’s order at Docket 13, the court noted that in Count I
Abdulrazzak alleged that the decision to add parole requirements is a policy of
the parole board. See Docket 13 at 9. Thus, Abdulrazzak fails to allege that
Werner and J.C. Smith were responsible for imposing the treatment
requirement.
D. Count IV
Abdulrazzak claims that the court missed his allegation against Kaufman
and Dakota Psychological Services. Docket 57 at 8. Abdulrazzak alleges that
21

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 22 of 43 PagelD #: 1160

Kaufman and Dakota Psychological Services violated his rights because they
terminated him from treatment in retaliation for exercising his Fifth
Amendment right to not incriminate himself. Id. The court’s order at Docket 46
addressed Abdulrazzak s motion to amend to add the treatment provider under
Count II. The court stated, “The second amended complaint, however, contains
no allegation that the treatment provider had the power to revoke
Abdulrazzak s parole. Thus, it would be futile to allow an amendment of the
complaint to add the treatment providers as named defendants in Count II.”
See Docket 46 at 8. Abdulrazzak’s motion to reconsider provides no
information that would change the court’s previous finding and therefore is
denied.
Abdulrazzak further requests that this court reconsider his claim against
Kaufman and Dakota Psychological Services for their alleged participation in
denying him access to the court by denying him access to a computer with
internet to do his legal work while on parole when he did not admit guilt. As
the court previously found, Kaufman and Dakota Psychological Services, as
psychologist and service provider, have no absolute power over whether
Abdulrazzak is allowed to use a computer. See Docket 13 at 10. Furthermore,
Abdulrazzak fails to allege that Kaufman and Dakota Psychological Services
ever denied his request to use the computer. Thus, Abdulrazzak fails to state a
claim against Kaufman and Dakota Psychological Services.

22

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 23 of 43 PagelD #: 1161

E. Count VI
Abdulrazzak asks this court to reconsider his allegations concerning
changes in his parole conditions discussed above and the deprivation of a
smart phone, video visitation with his parents, calls to his niece, and Arabiclanguage media. Docket 57 at 9. First, Abdulrazzak argues that McKune v. Lite,
536 U.S. 24 (2002) does not apply to his claims because he was not in prison.
This argument fails because it does not address the reason for which the court
relied on McKune. In McKune, a plurality of the Supreme Court held that prison
officials did not violate a prisoner’s Fifth Amendment rights when they changed
the prisoner’s privilege status level and moved him to a maximum-security
facility after he refused to participate in a sexual abuse treatment program,
which required him to admit all prior improper sexual activities without
guaranteed immunity. See McKune, 536 U.S. at 24. The Court found that these
consequences were not severe enough to constitute “compulsion” for purposes
of the Fifth Amendment right against self-incrimination. Id.
Abdulrazzak cites several Eighth Circuit opinions where the Eighth
Circuit invalidated conditions of supervised release that banned internet or
computer use as overly broad. Docket 57 at 9-10. None of the cases
Abdulrazzak cites address the Fifth Amendment or the use parole conditions to
force a parolee to admit guilt. Thus, Abdulrazzak fails to state a claim.
F. Count VII
Abdulrazzak ask the court to add defendants Joseph Siemonsma and
Robert Berthelson. Docket 57 at 12. This court dismissed Siemonsma and
23

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 24 of 43 PagelD #: 1162

Berthelson because Abdulrazzak failed to state a claim upon which relief may
be granted. Docket 46 at 12-13. In his second amended complaint,
Abdulrazzak fails to allege any facts against Siemonsma or Berthelson. Their
names are not even mentioned in Count VII. See Docket 47 at 18-20.
Abdulrazzak’s motion to reconsider fails to rectify the deficiencies of his
second amended complaint. Thus, the court will not add Siemonsma and
Berthelson as defendants.
IV.

Motion to Reconsider Order Granting Extension of Time to Answer
Abdulrazzak asks the court to reconsider its order granting defendants’

motion for an extension of time to file an answer. Docket 59. Defendants filed
their answer on January 17, 2018. Thus, Abdulrazzak’s motion to reconsider
order granting extension (Docket 59) is denied as moot.
V.

Motion for Discovery of Plaintiffs File
Abdulrazzak moves this court to order defendants’ counsel to turn over

Abdulrazzak’s institutional file. Docket 60. Such a request should have been
made to defendants through a request for production of documents. There is
no indication that any such request was ever made. Therefore, Abdulrazzak’s
motion (Docket 60) is denied.
VI.

Motion to Strike Defendants’ Answer to Second Amended
Complaint
Abdulrazzak moves to strike portions of defendants’ answer to the

Second Amended Complaint under Fed. R. Civ. P. 12(f). Docket 72. Under Rule
12(f) [t]he court may strike from a pleading an insufficient defense or any
redundant, immaterial, impertinent, or scandalous matter.” The court enjoys
24

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 25 of 43 PagelD #: 1163

“liberal discretion” in determining whether to strike a party’s pleadings but it
is an “extreme measure.” Stanbury Law Firm v. I.R.S., 221 F.3d 1059, 1063
(8th Cir. 2000). Thus, motions to strike under Rule 12(f) are “infrequently
granted. Id. Abdulrazzak failed to demonstrate how defendants’ answer is a
“redundant, immaterial, impertinent, or scandalous matter.” Rather,
Abdulrazzak s motion shows that he disagrees with the defendants’ answer,
but that is not a basis to strike pleadings. Abdulrazzak also argues that
defendants’ affirmative defenses should be stricken because “defendants failed
to prove them.” Defendants are under no obligation to prove their affirmative
defenses in their answer. Thus, Abdulrazzak’s motion to strike (Docket 72) is
denied.
VII.

Motion for Entry of Default and Reconsideration of Clerk’s Denial of
Entry of Default
Abdulrazzak moved for default judgment on his motion to impose

sanctions (Docket 75) and the Clerk of Court denied his request for entry of
default (Docket 78). Abdulrazzak now moves the court to reconsider the clerk’s
entry of default. Docket 92. Abdulrazzak argues he is entitled to default
judgment because defendants never opposed his motion for sanctions. Entry
of default is appropriate “[w]hen a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defendf.]” Fed. R.
Civ. P. 55(a). Defendants’ lack of response to a motion is not a failure to plead
or otherwise defend. Defendants filed an answer with affirmative defenses on
January 17, 2018. Docket 64. Thus, Abdulrazzak’s motion to reconsider
clerk’s entry of default (Docket 92) is denied.
25

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 26 of 43 PagelD #: 1164

Abdulrazzak moves the court for entry of default judgment against
Kaufman (Docket 77) and moves the court to reconsider that motion (Docket
91). Abdulrazzak requests that default be entered against defendant Kaufman
because Abdulrazzak claims Kaufman is evading service of process. To date,
Kaufman has not been served. Default judgment cannot be entered against a
party who has not been served. Thus, Abdulrazzak’s motion for entry of
default judgment (Docket 77) and motion to reconsider the same (Docket 91)
are denied.
VIII. Motions for Sanctions
Abdulrazzak moves this court to impose sanctions against defendants.
Docket 76. Abdulrazzak alleges that defendants failed to comply with this
courts December 12, 2017 order (Docket 46) directing defendants to disclose
any contact information of Kaufman. Docket 76. Defendants responded to the
court’s order and explained they only had a phone number. Docket 55.
Defendants also stated, Counsel, however, is willing to provide the Court or
the U.S. Marshals Service with the limited information now available if the
Court deems it necessary. Counsel, if directed to do so by the Court, could
provide said contact information to the U.S. Marshal’s Service in a
‘confidential memorandum’ or furnish the same to the Court provided that
said telephone number is under seal by the Court and not be a matter of
public record.” Id. The court has not yet ordered counsel to turn over the
phone number. Thus, defendants have complied with the court’s order and
Abdulrazzak’s motion (Docket 76) is denied.
26

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 27 of 43 PagelD #: 1165

IX.

Motion to Dismiss Defendants’ Motion for Summary Judgment
Abdulrazzak moves to dismiss defendants’ motion for summary

judgment. Abdulrazzak argues that the motion is premature and that
defendants exceed the scope of Abdulrazzak’s claims. The court set February
28, 2018 as the deadline for defendants’motion for summary judgment based
on qualified immunity. Docket 50. Defendants filed their motion for summary
judgment on February 23, 2018. Docket 81. Thus, defendants’ motion is not
premature. Abdulrazzak contends that defendants should not raise issues
involving his underlying state criminal conviction or his habeas petition.
Docket 94. Abdulrazzak raised claims that implicate both his underlying
conviction and his habeas proceeding. Thus, Abdulrazzak’s motion to dismiss
defendants’ motion for summary judgment (Docket 94) is denied.
X.

Defendants’ Motion for Summary Judgment
A. Individual Capacity Claims
Defendants in their individual capacities contend that they are entitled to

qualified immunity. Section 1983 provides a cause of action against any
“person who, under color of any statute, ordinance, regulation, custom, or
usage, of any state” causes the deprivation of a right protected by federal law or
the United States Constitution. 42 U.S.C. § 1983. The doctrine of qualified
immunity, however, generally shields “ ‘government officials performing
discretionary functions . . . from liability for civil damages insofar as their
conduct does not violate clearly established statutory or constitutional rights of
which a reasonable person would have known.
27

Smith v. City of Minneapolis,

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 28 of 43 PagelD #: 1166

754 F.3d 541, 545 (8th Cir. 2014) (alteration omitted) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified immunity protects “all but the
plainly incompetent or those who knowingly violate the law.” Malley v. Briggs,
475 U.S. 335, 341 (1986).
To overcome a qualified immunity defense at the summary judgment
stage, a plaintiff must show: “(1) the facts, viewed in the light most favorable to
the plaintiff, demonstrate the deprivation of a constitutional or statutory right;
and (2) the right was clearly established at the time of the deprivation.” Howard
v. Kan. City Police Dep% 570 F.3d 984, 988 (8th Cir. 2009). The court may
analyze these two factors in either order. Hutson v. Walker, 688 F.3d 477, 483
(8th Cir. 2012) (citing Pearson v. Callahan, 555 U.S. 223, 236 (2009)). But “[t]o
deny the officers qualified immunity, [the court] must resolve both questions in
[the plaintiffs] favor.” Hawkins v. Gage Cty., 759 F.3d 951, 956 (8th Cir. 2014).
1. Count II — Notice of Parole Conditions
“[T]he general rule is that a person has no claim for civil liability based
on the Fifth Amendment’s guarantee against compelled self-incrimination
unless compelled statements are admitted against him in a criminal case.”
Entzi v. Redmann, 485 F.3d 998, 1002 (8th Cir. 2007) (citation omitted). The
Supreme Court “left open the possibility that a ‘powerful showing’ might
persuade [it] to expand the protection of the self-incrimination clause to the
point of civil liability[.]” Id. (quoting Chavez v. Martinez, 538 U.S. 760, 778
(2003)(plurality opinion)).

28

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 29 of 43 PagelD #: 1167

In McKune, a plurality of the Supreme Court held that prison officials
did not violate a prisoner’s Fifth Amendment rights when they changed the
prisoner s privilege status level and moved him to a maximum-security facility
after he refused to participate in a sexual abuse treatment program, which
required him to admit all prior improper sexual activities without guaranteed
immunity. McKune v. Lile, 536 U.S. 24, 38 (2002) (plurality opinion). The
Court found that these consequences were not severe enough to constitute
compulsion for the purposes of the Fifth Amendment right against selfincrimination. Id. There, the plaintiff complained he would be transferred and
lose privileges, but the Court observed that this decision would “not extend his
term of incarceration” or affect his parole eligibility. Id. at 38.
In Entzi, the Eighth Circuit denied a sex offender’s claim that a
probation officer violated his Fifth Amendment rights by filing a petition to
revoke his probation when it was discovered that Entzi had not finished sex
offender treatment where he would have had to admit his offense. Entzi, 485
F.3d at 1001. Relying on McKune, the Eighth Circuit found that the loss of an
opportunity for a discretionary sentence-reduction credit “is not among the
consequences for noncompliance that go *beyond the criminal process and
appear, starkly, as government attempts to compel testimony.

9 99

Entzi, 485

F.3d at 1004 (quoting McKune, 536 U.S. at 53 (O’Connor, J., concurring)).
Here, Abdulrazzak’s claim against Werner survived screening because
he alleges that his parole was revoked after he refused to incriminate himself.
Docket 46 at 7. Abdulrazzak claims that he would have invoked the Fifth
29

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 30 of 43 PagelD #: 1168

Amendment before his first release in 2014 if Werner would have provided
adequate notice to him that he would later be required to admit guilt in sex
offender treatment. Abdulrazzak alleges that this would have allowed him to
“stay in prison until [he] flat time[d] without imposing the extra damages that
may applied to me while on parole like parole violation con sequence s[.]”
Docket 47 at 6.
The undisputed facts fail to show that Werner served as Abdulrazzak’s
parole agent in 2014, the time he claims he was constitutionally entitled to
notice of the required sex offender treatment. It is well established that
“ liability under section 1983 requires a causal link to, and direct
responsibility for, the alleged deprivation of rights.

Armour v. St. Louis Cty.

Work, 2008 WL 619381, *1 (E.D. Mo. Mar. 5, 2008) (quoting Madewell v.
Roberts, 909 F.2d 1203, 1208 (8th Cir. 1990)). To state a claim under § 1983,
Abdulrazzak must show that Werner “personally violated” his constitutional
rights. Jackson v. Nixon, 747 F.3d 537, 543 (8th Cir. 2014). Abdulrazzak was
released from the ICE hold on April 20, 2016, because he temporarily settled
his immigration case. Dockets 86 t 8 and 82-15. After he reported to the
Admission & Orientation Unit at the SDSP, Dusti Werner was then assigned to
serve as Abdulrazzak’s parole agent. Docket 86 Tf 9. Abdulrazzak contends
that Werner failed to provide notice of required sex offender treatment before
he was initially released on parole in 2014. Because Werner was not assigned
to serve as Abdulrazzak’s parole agent until after Abdulrazzak’s release on
April 20, 2016, Werner lacked the personal involvement in failing to provide
30

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 31 of 43 PagelD #: 1169

notice that is necessary to state a claim under § 1983. Thus, Abdulrazzak fails
to state a claim against Werner.
Even if Abdulrazzak did state a claim, Werner asserts that she is
entitled to absolute immunity for her role in imposing, and enforcing, the
various conditions set out in the parole supervision agreement. Docket 82 at
11. Werner cites Figg v. Russell, 433 F.3d 593, 599 (8th Cir. 2006) as support
for her argument. In Figg, a South Dakota parolee alleged that she was
illegally incarcerated after being detained for a parole violation. 433 F.3d at
596. Figg raised a claim against her parole agent because the agent offered her
a parole agreement without giving her notice that the terms applied to her
previously suspended sentence. Id. at 599. The Eighth Circuit found this
function “so associated with the function of the Parole Board that [the parole
agent], too, is cloaked in absolute immunity[,]” and dismissed the claim. Id. at
599-600 (citing SDCL 24-15-1.1). “[T]he extent of immunity accorded an
official depends solely on the official’s function.” Id. at 599 (quoting Nelson v.
Balazic, 802 F.2d 1077, 1078 (8th Cir. 1986).
Werner claims that she “was merely ‘acting as a representative of the
parole board’ when, on May 17, 2016, she presented the Tarole Standard
Supervision Agreement’ to Abdulrazzak for him to sign.” Docket 82 at 9. “[T]he
supervision agreements are prepared by the Director and Parole Board staff at
the direction of the Parole Board.” Castaneira v. Ligtenberg, 2006 WL 571985,
at *4 (D.S.D. Mar. 7, 2006). The court finds that Werner is entitled to absolute
immunity as an agent of the Parole Board for presenting the 2016 Agreement
31

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 32 of 43 PagelD #: 1170

to Abdulrazzak. Abdulrazzak’s claim against Werner in her individual capacity
must be dismissed, as “absolute immunity defeats a suit at the outset, so long
as the official’s actions were within the scope of the immunity.” Figg, 433 F.3d
at 597.
2. Count III - Retaliation
To establish a retaliation claim, Abdulrazzak must show “(1) he engaged
in a protected activity, (2) the government official took adverse action against
him that would chill a person of ordinary firmness from continuing in the
activity, and (3) the adverse action was motivated at least in part by the
exercise of the protected activity.” Spencer v. Jackson Cty., 738 F.3d 907, 911
(8th Cir. 2013) (quoting Revels v. Vincenz, 382 F.3d 870, 876 (8th Cir. 2004)).
In order to succeed on a retaliation claim, a plaintiff must show that the
“adverse action taken against him was ‘motivated at least in part’ by his
protected activity . . . .” Id. (quoting Revels, 382 F.3d at 876). Although “[t]he
causal connection is generally a jury question, ... it can provide a basis for
summary judgment when the question is so free from doubt as to justify
taking it from the jury.” Beaulieu v. Ludeman, 690 F.3d 1017, 1025 (8th Cir.
2012) (quoting Revels, 382 F.3d at 876).
Abdulrazzak claims that Werner and Smith violated his constitutional
rights because they revoked his parole in retaliation for exercising his Fifth
Amendment right to not incriminate himself. Docket 46 at 8. Defendants
argue that Abdulrazzak’s retaliation claim is barred by the “favorable
termination” rule established in Heck v. Humphrey, 512 U.S. 477 (1994).
32

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 33 of 43 PagelD #: 1171

Abdulrazzak disagrees and argues that defendants know this is not a habeas
petition because he does not seek release from prison. Docket 100 at 4.
The Eighth Circuit has held that Heck applies to decisions concerning
parole. Schafer v. Moore, 46 F.3d 43 (8th Cir. 1995). Defendants cite Round v.
Party, 2016 WL 4123671, at *2 (S.D. Ill. Aug. 3, 2016). In Round, the plaintiff
alleged that a member of the Illinois Prisoner Review Board “retaliated against
him for threatening to take legal action by terminating his MSR [Mandatory
Supervised Release].” Round, 2016 WL 4123671, at *2. The court, however,
found that, “as a threshold matter,” the plaintiff “cannot challenge the
propriety of . . . the PRB ruling revoking his MSR[] by bringing a claim for
money damages against Defendant Doe under § 1983.” Id. The court
continued that “a claim for damages arising from the wrongful revocation of
Plaintiffs MSR is barred by Heck and Edwards.” Id.
When a state prisoner seeks relief under 42 U.S.C. § 1983, the district
court must consider whether a judgment in favor of the plaintiff would
necessarily invalidate plaintiffs conviction or sentence. Heck, 512 U.S. at
486-87. Because that is the case here, Abdulrazzak must “show ‘that his
parole revocation has been overturned by either a . . . state court or a federal
habeas corpus decision. > » Freeman v. Kentucky Parole Bd., 2017 WL 4274172,
at *2 (W.D. Ky. Sept. 26, 2017) (quoting Norwood v. Mich. Dep’t. ofCorr., 67 F.
App’x 286, 287 (6th Cir. 2003)). Although Abdulrazzak explains that he has
appealed the parole board’s decision to state court, it appears that no decision
has been reached. Docket 100 at 20. Because Abdulrazzak cannot show that
33

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 34 of 43 PagelD #: 1172

his parole revocation has been overturned, his claim is dismissed without
prejudice for failure to state a claim upon which relief may be granted.
3. Count V - Access to Documents
“The Constitution guarantees prisoners a right to access the courts.”
White v. Kautzky, 494 F.3d 677, 679 (8th Cir. 2007). This “requires ‘prison
authorities to assist inmates in the preparation and filing of meaningful legal
papers by providing prisoners with adequate law libraries or adequate
assistance from persons trained in the law.

Id. (citation omitted). To prove a

violation of the right of access to the courts, a prisoner must establish that he
has been injured by the violation. Id. at 680.
Abdulrazzak alleges that he missed a filing deadline because Werner
would not allow him to access a computer and his digitally stored files. Docket
31-1. Abdulrazzak alleges that Werner “knew about my need to have access to
digital information stored in CD and they kept away from me.” Id. Abdulrazzak
first alleged that the CD contained information from his original conviction for
his habeas petition. Id. Abdulrazzak later stated that his CD contained his
immigration documents. Docket 100 at 32.
Defendants argue that Abdulrazzak has not and cannot “designate
specific facts showing that he suffered prejudice” as a result of his limited
access. Docket 82 at 45 (citing Cody v. Weber, 256 F.3d 764, 770 (8th Cir.
2001). “To prove actual injuiy, [a prisoner] must demonstrate that a
nonfrivolous legal claim has been frustrated or was being impeded.” Hartsfield

34

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 35 of 43 PagelD #: 1173

v. Nichols, 511 F.3d 826, 832 (8th Cir. 2008)(alteration in original)(internal
quotation omitted).
It is undisputed that Werner “offered to print off [Abdulrazzak’s]
paperwork so that he could continue to write out his argument for his court
case.” Docket 86 If 66. Abdulrazzak even claims that Werner “offered to take
my CD to her office. Docket 33. It is also undisputed that Werner provided
Abdulrazzak two options to meet his deadlines: Abdulrazzak could complete
his work by hand or Abdulrazzak could use a computer under the supervision
of his lawyer. Dockets 86 If 74 and 82-32. The record contains numerous
examples of Werner looking for a way Abdulrazzak could use a computer.
Docket 86. Those efforts only ceased when Abdulrazzak informed Werner that
he was “done with his argument” and therefore “didn’t need to ask about
computer use again” during their July 12, 2016 meeting. Dockets 86 | 85 and
82-29.
Abdulrazzak has a court-appointed attorney in his state habeas
proceeding. Defendants contend that Abdulrazzak’s access to his courtappointed counsel was never hindered. Courts have recognized that a prison
official s obligation to assist inmate with their legal matters by providing a law
library or legal assistance is satisfied when the prisoner has been offered or
provided a lawyer.” Stanko v. Patton, 568 F. Supp. 2d 1061, 1075 (D. Neb.
2008) (citing Kane v. Garcia Espitia, 546 U.S. 9 (2005)). It is undisputed that
there was frequent communication between Werner and Hofer about
Abdulrazzak’s petition. See Dockets 82-2, 82-19, 82-28, 82-37, 86 Tflf 68-72.
35

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 36 of 43 PagelD #: 1174

Thus, Abdulrazzak fails to state a legal access claim against defendants as it
relates to his state habeas petition.
Defendants argue that Abdulrazzak’s immigration case was frivolous as
the BIA had already denied reopening his case on two prior occasions. Docket
82 at 50. Defendants allege that Abdulrazzak already “filed a timely motion to
reconsider our [BIA] December 3, 2015 decision which was denied on
February 9, 2016.” Docket 33-7. According to the BIA, Abdulrazzak “has not
demonstrated any prejudice which would warrant reopening based on an
ineffective assistance claim.” Docket 82-5. On April 15, 2016, the BIA re­
issued their decision denying Abdulrazzak’s motion to reconsider to correct a
clerical mistake. Id.
Abdulrazzak maintains that he had a deadline for filing a new motion to
reopen/reconsider with the Board of Immigration Appeals and an appeal with
the Eighth Circuit. Docket 100 at 28. Abdulrazzak contends he had 90 days
after the BIA re-issued a decision on April 15, 2016. Docket 100 at 31.
Abdulrazzak planned to argue that the BIA failed to consider supplemental
materials. Id. Even if this was a non-frivolous argument, Abdulrazzak fails to
demonstrate that Werner’s offer to print Abdulrazzak’s documents and
permission for him to handwrite his motion to reconsider was inadequate. As
such, Abdulrazzak fails to demonstrate a violation of a constitutional right
necessaiy to overcome qualified immunity.

36

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 37 of 43 PagelD #: 1175

4. Count VII - Loss of Flash Drive
“The taking of an inmate’s legal papers can be a constitutional violation
when it infringes his right of access to the courts.” Goffv. Nix, 113 F.3d 887,
892 (8th Cir. 1997) (citation omitted). “[T]he destruction or withholding of
inmates’ legal papers burdens a constitutional right, and can only be justified
if it is reasonably related to a legitimate penological interest.” Id.
It is undisputed that Bertsch did not work in Unit C at the time the USB
drive was lost. Docket 85 ^ 7. As previously stated, it is well established that
“ liability under section 1983 requires a causal link to, and direct
responsibility for, the alleged deprivation of rights.’ ” Armour, 2008 WL
619381, at *1 (quoting Madewell, 909 F.2d at 1208)). To state a claim under
§ 1983, Abdulrazzak must show that Bertsch “personally violated” his
constitutional rights. Jackson v. Nixon, 747 F.3d 537, 543 (8th Cir. 2014).
Abdulrazzak is unable to demonstrate that Bertsch could have been involved
in the alleged loss of the USB drive. Thus, Abdulrazzak fails to demonstrate a
violation of his constitutional rights necessary to overcome qualified immunity.
B. Official Capacity
Abdulrazzak sued defendants in their official capacity. Docket 47. As the
Supreme Court has stated, “a suit against a state official in his or her official
capacity is not a suit against the official but rather is a suit against the
official's office.” Will v. Mich. Dep’t of State Police, 491 U.S. 58, 71 (1989) (citing
Brandon v. Holt, 469 U.S. 464, 471 (1985)). Thus, it is a suit against the state
itself. Id. While “[§] 1983 provides a federal forum to remedy many deprivations
37

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 38 of 43 PagelD #: 1176

of civil liberties . . . it does not provide a federal forum for litigants who seek a
remedy against a State for alleged deprivations of civil liberties.” Id. at 66. The
Eleventh Amendment generally acts as a bar, to suits against a state for money
damages unless the state has waived its sovereign immunity. Id.
Here, as part of Abdulrazzak’s requested remedy, he seeks to recover
money damages. Docket 47 at 9. Because Abdulrazzak sued defendants in
their official capacity, Abdulrazzak has asserted a claim for money damages
against the state of South Dakota. The state of South Dakota has not waived
its sovereign immunity, however, so the Eleventh Amendment acts as a bar to
Abdulrazzak’s monetary damage claims against the state officials acting in
their official capacities.
Abdulrazzak also seeks declaratory and injunctive relief. Docket 100 at
10. Declaratory and prospective injunctive relief are available as remedies
against a state officer in his or her official capacity. Pulliam v. Allen, 466 U.S.
522, 541 (1984). Immunities, i.e., absolute, prosecutorial or qualified immunity
are not a bar to plaintiffs action for injunctive and declaratory relief under
Section 1983.” Timmerman v. Brown, 528 F.2d 811, 814 (4th Cir. 1975).
Here, Abdulrazzak is not entitled to injunctive or declaratory relief
because he has failed to demonstrate a deprivation of his constitutional rights.
As discussed in the individual capacity claims section, evidence of any past
wrong on the part of defendants is lacking. Because there is no constitutional
wrong that can be imputed to the state, defendants are entitled to summary
judgment on Abdulrazzak’s official capacity claim.
38

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 39 of 43 PagelD #: 1177

XI.

Kaufman
Abdulrazzak has not yet served Joshua Kaufman and asks the court to

authorize service by publication. Kaufman was formerly an employee of
Dakota Psychological Services and he contracted with the South Dakota
Department of Corrections to provide treatment for the State’s parolees and
inmates. A single deliberate indifference to serious medical needs claim
against Kaufman survived the initial screening. See Dockets 13 at 10 and 45
at 9. The court now reconsiders its prior screening order.
“[T]° state a claim for relief under § 1983, a plaintiff must allege
sufficient facts to show ‘(1) that the defendant(s) acted under color of state law,
and (2) that the alleged wrongful conduct deprived the plaintiff of a
constitutionally protected federal right.’ ” Zutz v. Nelson, 601 F.3d 842, 848
(8th Cir. 2010) (quoting Schmidt v. City of Bella Villa, 557 F.3d 564, 571 (8th
Cir. 2009)). Acting under the color of state law means that the defendant must
“have exercised power ‘possessed by virtue of state law and made possible only
because the wrongdoer is clothed with the authority of state law.

West v.

Atkins, 487 U.S. 42, 49 (1988) (quoting United States v. Classic, 313 U.S. 299,
326 (1941)).
In Brentwood Academy v. Tennessee Secondary School Athletic Ass’n, 531
U.S. 288 (2001), the Supreme Court stated that “there is no single test to
identify state actions and state actors . . . .” Id. at 294. The Court undertook a
fact-intensive inquiry to determine whether a private entity acted under color of
state law in a § 1983 claim. Id. at 298. The Court applied its analysis from
39

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 40 of 43 PagelD #: 1178

Rendell-Baker v. Kohn, 457 U.S. 830 (1982). In Rendell-Baker, the Supreme
Court determined that a private school, whose income is derived primarily
from public sources and which is regulated by public authorities,” did not “[act]
under color of state law when it discharged certain employees.” Id. at 831.
First, the Court in Rendell-Baker reasoned that actions of private
contractors are not state actions “by reason of [the contractor’s] significant or
event total engagement in performing public contracts.” Id. at 841. Second, the
Court held that state regulation, “even if ‘extensive and detailed,

9 79

does not

make a private contractor’s actions state action. Id. Third, the Court held that
a private entity is a state actor not when the entity merely performs a public
function, but when “the function performed has been ‘traditionally the
exclusive prerogative of the State.

9 99

Id. at 842 (quoting Jackson v. Metro.

Edison Co., 419 U.S. 345, 353 (1974). Fourth, the court held that there was not
a “symbiotic relationship” between the government and the private school. Id.
at 843; see Burton v. Wilmington Parking Auth., 365 U.S. 715 (1961).
Using the reasoning outlined in Rendell-Baker, Abdulrazzak has not
pleaded sufficient facts to show that Kaufman acted under color of state law
when he denied Abdulrazzak treatment. Abdulrazzak fails to allege any facts to
suggest the State exercised any power over Kaufman’s treatment decisions in
cariying out the state contract. Abdulrazzak did not allege facts indicating that
providing sex offender treatment is a traditional and exclusive function of the
state. See Reinhardt v. Kopcow, 65 F. Supp. 3d 1164, 1172 (D. Colo. 2014) (sex
offender treatment is not traditional and exclusive state function). Abdulrazzak
40

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 41 of 43 PagelD #: 1179

did not allege any facts suggesting a “symbiotic relationship” between the state
defendants and Kaufman regarding Abdulrazzak’s treatment. Thus,
Abdulrazzak fails to demonstrate that Kaufman acted under the color of state
law as is necessary to obtain relief under § 1983.
The United States Court of Appeals for Tenth Circuit reached the same
conclusion in Gross v. Samudio, 630 F. App’x. 772, 778-80 (10th Cir. 2015).
The Tenth Circuit held that a private sex offender treatment provider did not
act under color of state law when a sex offender treatment provider refused to
admit a parolee into a sex offender treatment program when the parolee
challenged the program s acceptance-of-responsibility treatment requirement.”
Id. at 775.
Because Abdulrazzak failed to state a claim under § 1983, Abdulrazzak
relies on a state-law cause of action for his claim against Kaufman. Under
28 U.S.C. § 1367(c)(3), the district court “may decline to exercise supplemental
jurisdiction over a claim” if “the district court has dismissed all claims over
which it has original jurisdiction.” Because the § 1983 claim against the other
defendants was the only claim over which this court had original jurisdiction,
the court exercises its discretion and dismisses the state-law claim against
Kaufman. If Abdulrazzak wants to pursue his state-law claim, he should do so
in state court. Thus, Abdulrazzak’s claim against Kaufman is dismissed
without prejudice.
Thus, it is ORDERED:
1.

Abdulrazzak’s motion for discovery (Docket 51) is denied.
41

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 42 of 43 PagelD #: 1180

2.

Abdulrazzak’s motion to appoint counsel (Docket 56) is denied.

3.

Abdulrazzak’s motion to reconsider (Docket 57) is denied.

4.

The stay (Docket 71) is lifted.

5.

Abdulrazzak’s motion to reconsider order granting extension
(Docket 59) is denied as moot.

6.

Abdulrazzak’s motion for discovery of plaintiffs file (Docket 60) is
denied.

7.

Abdulrazzak’s motion for sanctions (Docket 65) is denied.

8.

Abdulrazzak’s motion to strike (Docket 72) is denied.

9.

Abdulrazzak’s motion to reconsider clerk’s entry of default
(Docket 92) is denied.

10.

Abdulrazzak’s motion for entry of default judgment (Docket 77)
and motion to reconsider motion for entry of default judgment
(Docket 91) are denied.

11.

Abdulrazzak’s motion to follow on Abdulrazzak’s motion for
default (Docket 109) is denied.

12.

Abdulrazzak’s motion for sanctions (Docket 76) is denied.

13.

Abdulrazzak’s motion to take judicial notice of exhibit (Dockets
104 and 105) and then his motion to amend motion to take
judicial notice (Docket 108) are denied. The exhibit is filed in the
record of this case.

14.

Abdulrazzak s motion re service (Docket 106) is granted.
Abdulrazzak may satisfy his obligation to serve copies of pleadings
42

Case 4:17-cv-04058-KES Document 110 Filed 09/26/18 Page 43 of 43 PagelD #: 1181

upon defendants by sending a letter to defendant’s counsel
identifying all documents that he files with the clerk of court.
Defense counsel will receive notice from the clerk of court when
those document have been filed.
. 15.

Abdulrazzak’s motion for service by publication (Docket 62) is
denied as moot.

16.

Abdulrazzak’s claim against Kaufman is dismissed without
prejudice.

17.

Defendants’ motion for summary judgment (Docket 81) is granted.

DATED this September 25, 2018.
BY THE COURT:

/s/ Karen %. Scfireier__________
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

43

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 1 of 7 PagelD #: 1220

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
»>•#

HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.

ORDER DENYING
MOTION TO RECONSIDER

DUSTI WERNER, SR. PAROLE
OFFICER, SD. BD. OF PARDONS AND
PAROLES, IN HIS INDIVIDUAL AND
OFFICIAL CAPACITY; JOSHUA J.
KAUFMAN, J.C. SMITH, PAROLE
OFFICER SUPERVISOR, SD BD. OF
PARDONS AND PAROLES, IN THEIR
INDIVIDUAL AND OFFICIAL
CAPACITIES; JOHN DOE 2,
CORRECTIONAL OFFICER, SOUTH
DAKOTA STATE PENITENTIARY, IN HIS
INDIVIDUAL AND OFFICIAL
CAPACITIES; AND F/N/U BERTSCH,
UNIT MAMAGER, SDSP, IN HIS
INDIVIDUAL AND OFFICIAL
CAPACITIES;
Defendants.

INTRODUCTION
On September 26, 2018, a judgment was entered in favor of defendants
in the above-captioned case. Docket 111. This court granted defendants’
motion for summary judgment and dismissed Abdulrazzak’s remaining claim.
Docket 110. Abdulrazzak now moves for reconsideration (Docket 112) and to
proceed in forma pauperis on appeal (Docket 113).

APPENDIX
I

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 2 of 7 PagelD #: 1221

DISCUSSION
I.

Motion to Reconsider
Although “a self-styled motion to reconsider ... ‘is not described by any

particular rule of federal civil procedure/” the court typically construes “such a
filing as a Rule 59(e) motion to alter or amend the judgment or as a Rule 60(b)
motion for relief from judgment.” Ackerland u. United States, 633 F.3d 698, 701
(8th Cir. 2011) (quoting Sanders v. Clemco Indus., 862 F.2d 161, 168 (8th Cir.
1988); citing Auto Servs. Co. v. KPMG, LLP, 537 F.3d 853, 855 (8th Cir. 2008)).
“[A]ny motion that draws into question the correctness of the judgment is
functionally a motion under Fed. R. Civ. P. 59(e), whatever its label.” Quartana v.
Utterback, 789 F.2d 1297, 1300 (8th pir. 1986) (internal quotation omitted). In the
Eighth Circuit, a court must find a manifest error of law or fact in its ruling to
alter or amend its judgment under Rule 59(e). See Hagerman v. Yukon Energy
Corp., 839 F.2d 407, 414 (8th Cir. 1988). But Rule 59(e) motions may not be used
to introduce evidence, tender new legal theories, or raise arguments that could
have been offered or raised prior to the entry of judgment. Id.
Abdulrazzak first asks the court to reconsider his request for a new
parole revocation hearing. Docket 112 at 1. Abdulrazzak claims he established
a due process violation during his parole revocation proceeding. Id. at 2. This
court did not find that Abdulrazzak adequately pleaded a due process claim
during the screening of his initial complaint, amended complaint, or second
amended complaint. See Dockets 13 at 5-6, 46 at 3-4, 110 at 16-19. Thus,
there is no order for the court to reconsider.

2

*•••

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 3 of 7 PagelD #: 1222

Even if the court were to find that Abdulrazzak adequately pleaded a due
process claim in his second amended complaint, Abdulrazzak’s due process
claim fails. In his second amended complaint, Abdulrazzak alleges that “parole
board members did not find that my [F]ifth Amendment while on parole and
refusal to incriminate myself as an excuse applied to me as parolee when I
refused to admit the guilt, making their decision to be in contrary to Federal
laws and U.S. Supreme Court without showing any reasons for such
disagreement, and violating my due process constitutional rights[.]” Docket 47
at 5. Abdulrazzak then claims “Defendants parole officer, parole officer
supervisor, SD Parole Board, SD Parole Board director, and treatment provider,
in their attempt to force me to admit !Ene-^iilt. violated my Due Process just
because I am not a U.S. citizen who was granted temporary relief from
immigration, adding more restrictions without any specific reason beside the
one listed above. The result was losing liberty interest in privileges/rights
granted to me 8th Cir. Court decisions. In part, I lost access to my smartphone
which I paid for prior to those modifications .... I was deprived as well having
access to any media in my own language

Id. at 17.

The court construes Abdulrazzak’s due process claim as challenging the
procedures used in his parole-revocation proceedings, because success would
not necessarily demonstrate the invalidity of his current confinement or its
duration. See Wilkinson v. Dotson, 544 U.S. 74, 81-82 (2005) (“state prisoner's
§ 1983 action is barred (absent prior invalidation)—no matter the relief sought
(damages or equitable relief), no matter the target of the prisoner's suit (state
3

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 4 of 7 PagelD #: 1223

conduct leading to conviction or internal prison proceedings)—if success in
that action would necessarily demonstrate the invalidity of confinement or its
duration”).
In Morrissey u. Brewer,AOS U.S. 471 (1972), the Supreme Court set the
“minimum requirements of due process” for parole revocation hearings. Id. at
488-89 (quotations omitted). The Supreme Court specified that “the liberty of a
parolee, although indeterminate, includes many of the core values of
unqualified liberty and its termination . . . calls for some orderly process,
however informal.” Id. at 482 (emphasis added). The Court mandated the
following requirements:
(a) written notice of the claimed violations of parole; (b) disclosure to
the parolee of evidence against him; (c) opportunity to be heard in
person and to present witnesses and documentary evidence; (d) the
right to confront and cross-examine adverse witnesses (unless the
hearing officer specifically finds good cause for not allowing
confrontation); (e) a ‘neutral and detached’ hearing body . . . ; and
(f) a written statement by the factfinders as to the evidence relied on
and reasons for revoking parole.
408 U.S. at 489.
Abdulrazzak refers the court to his reply to defendants’ motion for “more
details of violations to his due process right.” Docket 112 at 2. This court is not
required to search the record for a claim. After reviewing the second amended
complaint again, the court still finds that Abdulrazzak failed to plead facts
necessary to state a due process claim.
In the second amended complaint, Abdulrazzak alleges the board did not
state what evidence it relied upon in reaching its decision. Docket 36 at 19. But

4

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 5 of 7 PagelD #: 1224

Abdulrazzak fails to identify what was inadequate about the process he
received. Thus, Abdulrazzak has failed to state a claim for relief.
Abdulrazzak also claims Kaufman is a state actor and as a named
defendant should have survived initial screening. Docket 112 at 3. For the
reasons previously stated in the order granting summary judgment (Docket
110 at 39-41), the court disagrees and relies on its prior holding.
With regard to the other issues raised by Abdulrazzak in his motion to
reconsider, the court finds that Abdulrazzak has not shown a manifest error of
law or fact sufficient to justify an amendment or change in the court’s prior
ruling. Any arguments made by Abdulrazzak could have been offered or raised
earlier. Abdulrazzak is simply trying to make the Same arguments again. As a
result, the motion for reconsideration is denied.
II.

Motion for Leave to Proceed In Forma Pauperis on Appeal
Under the Prison Litigation Reform Act (PLRA), a prisoner who “files an

appeal in forma pauperis ... [is] required to pay the full amount of a filing
fee.” 28 U.S.C. § 1915(b)(1). This obligation arises “ ‘the moment the
prisoner . . . files an appeal. > n Henderson v. Norris, 129 F.3d 481, 483 (8th Cir.
1997) (quoting In re Tyler, 110 F.3d 528, 529-30 (8th Cir. 1997)). Therefore,
(( t

[w]hen an inmate seeks pauper status, the only issue is whether the inmate

pays the entire fee at the initiation of the proceeding or over a period of time
under an installment plan.’ ” Id. (quoting McGore v. Wrigglesworth, 114 F.3d
601, 604 (6th Cir. 1997)). “[Prisoners who appeal judgments in civil cases

5

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 6 of 7 PagelD #: 1225

must sooner or later pay the appellate filing fees in full.” Id. (citing Newlin v.
Helman, 123 F.3d 429, 432 (7th Cir. 1997)).
In Henderson, the Eighth Circuit set forth “the procedure to be used to
assess, calculate, and collect” appellate filing fees in compliance with the
PLRA. 129 F.3d at 483. First, the court must determine whether the appeal is
taken in good faith. Id. at 485 (citing 28 U.S.C. § 1915(a)(3)). Then, so long as
the prisoner has provided the court with a certified copy of his prisoner trust
account, the court must “calculate the initial appellate partial filing fe e as
provided by § 1915(b)(1), or determine that the provisions of § 1915(b)(4)
apply.” Id. The initial partial filing fee must be 20 percent of the greater of:
(A)
(B)

the average monthly deposits to the prisoner’s account; or
the average monthly balance in the prisoner’s account for the 6month period immediately preceding the filing of the complaint or
notice of appeal.

28 U.S.C. § 1915(b)(1). Nonetheless, no prisoner will be “prohibited
from . . . appealing a civil or criminal judgment for the reason that the
prisoner has no assets and no means by which to pay the initial partial filing
fee.” 28 U.S.C. § 1915(b)(4).
It appears that Abdulrazzak’s appeal is taken in good faith. But
Abulrazzak has not filed the requisite paperwork to proceed in forma pauperis
or paid the appellate filing fee. “If the district court does not receive a certified
copy of the prisoner’s prison account within 30 days of the notice of appeal, it
shall calculate the initial appellate filing fee at $35 or such other reasonable
amount warranted by available information[.]” Henderson, 129 F.3d at 485

6

Case 4:17-cv-04058-KES Document 114 Filed 06/05/19 Page 7 of 7 PagelD #: 1226

(emphasis added). Abdulrazzak was granted leave to litigate in forma pauperis
at the district court level. See Docket 5. At that time, Abdulrazzak reported
average monthly deposits to his prisoner trust account of $91.67 and an
average monthly balance of $46.62. Docket 3. Thus, an initial partial filing fee
of $35 appears reasonable.
Thus, it is ORDERED
1. Abdulrazzak is granted leave to proceed in forma pauperis on appeal.
2. Abdulrazzak must pay an initial partial filing fee of $35 by July 5,
2019, made payable to the Clerk, U.S. District Court.
3. The institution having custody of Abdulrazzak is directed that
whenever the amount in Abdulrazzak’s trust account, exclusive of
funds available to him in his frozen account, exceeds $10, monthly
payments that equal 20 percent of the funds credited to the account
the preceding month shall be forwarded to the United States District
Court Clerk’s office pursuant to 28 U.S.C. § 1915(b)(2), until the
appellate filing fee of $505 is paid in full.
DATED this 5th day of June, 2019.
BY THE COURT:

/s / Karen <E. Scfreier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

7

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1213
Haider Salah Abdulrazzak
Appellant
v.
J. C. Smith, et al.
Appellees

Appeal from U.S. District Court for the District of South Dakota - Rapid City
(4:17-cv-04058-KES)
ORDER
Appellant’s motion to reinstate the appeal is denied.

June 17, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX
J

Case 4:17-cv-04058-KES Document 121 Filed 06/25/19 Page 1 of 2 PagelD #: 1265

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:17-CV-04058-KES

Plaintiff,
vs.

ORDER DENYING
MOTION TO RECONSIDER

DUSTI WERNER, SR. PAROLE
OFFICER, SD. BD. OF PARDONS AND
PAROLES, IN HIS INDIVIDUAL AND
OFFICIAL CAPACITY; JOSHUA J.
KAUFMAN, J.C. SMITH, PAROLE
OFFICER SUPERVISOR, SD BD. OF
PARDONS AND PAROLES, IN THEIR
INDIVIDUAL AND OFFICIAL
CAPACITIES; JOHN DOE 2,
CORRECTIONAL OFFICER, SOUTH
DAKOTA STATE PENITENTIARY, IN HIS
INDIVIDUAL AND OFFICIAL
CAPACITIES; AND F/N/U BERTSCH,
UNIT MAMAGER, SDSP, IN HIS
INDIVIDUAL AND OFFICIAL
CAPACITIES;
Defendants.

Abdulrazzak moves for reconsideration (Docket 120) of the court’s June
5, 2019 order (Docket 114). On June 5, 2019, the court ordered Abdulrazzak to
pay an initial partial appellate filing fee of $35. Docket 114. Abdulrazzak
argues his previous appeal should be reinstated and no new appellate filing fee
assessed. Docket 120. This court has no authority to reinstate Abdulrazzak’s
earlier appeal or waive the initial partial appellate filing fee required by
s'

APPENDIX
K

Case 4:17-cv-04058-KES Document 121 Filed 06/25/19 Page 2 of 2 PagelD #: 1266

28 U.S.C. § 1915(b)(1). The Court of Appeals for the Eighth Circuit will
determine whether to reinstate Abdulrazzak’s earlier appeal and will direct this
court on the collection of the appellate filing fee. Thus, it is
ORDERED that Abdulrazzak’s motion to reconsider (Docket 120) is
denied.
DATED this 25th day of June, 2019.
BY THE COURT:

/s/ Karen <E. Scfvreier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

2

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2170

Haider Salah Abdulrazzak
Plaintiff - Appellant
v.
J. C. Smith; Dusti Werner; Joshua J. Kaufman; F/N/U Bertsch; John Doe 2, in their individual
and official capacities
Defendants - Appellees
Appeal from U.S. District Court for the District of South Dakota - Rapid City
(4:17-cv-04058-KES)
JUDGMENT
Before COLLOTON, WOLLMAN, and KELLY, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
March 19, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
APPENDIX
L

®mteb ii>tate£ Court of Appeals?
Jfor tpe Cisfjtlj Circuit

No. 19-2170

Haider Salah Abdulrazzak,
Plaintiff - Appellant,
v.
J. C. Smith; Dusti Werner; Joshua J. Kaufman; F/N/U Bertsch; John Doe 2, in
their individual and official capacities,
Defendants - Appellees.

Appeal from United States District Court
for the District of South Dakota - Rapid City

Submitted: March 16, 2020
Filed: March 19, 2020
[Unpublished]

Before COLLOTON, WOLLMAN, and KELLY, Circuit Judges.

PER CURIAM.
Haider Salah Abdulrazzak appeals the district court’s1 dismissal of some of his
claims for failure to state a claim, and adverse grant of summary judgment on his
remaining claims. After de novo review of the record and the parties’ arguments on
appeal, the court finds no basis to reverse the court’s orders. To the extent
Abdulrazzak challenges any other court orders on appeal, we find no basis for
reversal. Accordingly, we affirm. See 8th Cir. R. 47B.

'The Honorable Karen E. Schreier, United States District Judge for the District
of South Dakota.
-2-

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2170
Haider Salah Abdulrazzak
Appellant
v.
J. C. Smith, et al.
Appellees

Appeal from U.S. District Court for the District of South Dakota - Rapid City
(4:17-cv-04058-KES)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
April 29, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX

N\

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK
Civ. (4:17-CV-04058-KES)
Plaintiff,
vs.
DENNIS KAEMINGK et al,
Defendants.

MOTION TO AMEND
(SECOND)

Pursuing to this Court order (dated August 18th, 2017), plaintiff respectfully submitting
now this SECOND AMENDED COMPLIANT, to rectify the deficiencies that was
recognize by this Court when screening the First Amended Complaint on (July 14th,
2017) and to add new defendants as follow:
1) Correct Defendant (JUSHUA KAUFMAN) first name as defendants' attorney of
records noticed it. The correct spelling will be (JOSHUA KAUFMAN).
2) To use the correct names of defendants (John Doe 1) and (John Doe 2) to be
(JOSEPH SDEMONSMA) and (ROBERT BERTHELSO^) to be the correct named
defendants in connect to COUNT VH.

3) COUNT I
(a) To add new defendants Parole Board Members (GREG ERLANDSON) and
(MAYRON RAU). Thereafter, the named defendants in connect with this Count will be:
South Dakota Secretary of Corrections, South Dakota Department of Corrections Policy

1

APPENDIX
N

Maker, South Dakota Board of Pardons and Paroles South Dakota Parole Board Director
(to be all Municipalities) and defendants Parole Board Members.
(b) The allegations in connect to this Count will be that defendants knowingly
adopted parole officer acts under the specific circumstances in this Count as
unconstitutional custom instead as a polity.

4) COUNT II:
(a) To name additional defendants that were already mention in the First Amended
Compliant. Thereafter, the named defendants in connect with this Count will be: Mike
Durfee State Prison ("MDSP") warden, MDSP Deputy/associate warden MDSP Unit
Staff Member, South Dakota Board of Pardons and Paroles, South Dakota Parole Board
Director, Parole officer Supervisor and Parole Officer^
LS W
$GMp) tgjstwO
(b) The allegations in connect with this Count will remain without change.
5) COUNT ITT:
a) The original named defendants will remain without change.
b) The allegations will remain the same with an emphasis to be added to the personal
involvement of the named defendants (line 6), and to the other claims that came under
this count that plaintiff would pray to this Court to reconsider them under the
circumstances, as well the responsibility of Parole officer supervisor when he knowingly
concur on the parole officer report adding other conditions represented by (passing a
polygraph related to original offenses to prove that I did not committed these crimes if I
wanted to be paroled again).] 4W,
ho

^
t*.

2

cwt
^ WyijtJf,
tin

61 COUNT IV:
a) The original named defendants will remain without change.
b) The allegations would remain without change, considering that my parole
conditions put the treatment provider and parole officer at the same level when
supervising me on parole. Plaintiff prays to this Court to reconsider all the claims that
came under this Count. Plaintiff prays to this Court to consider the fact of defendant
previously knowledge or (should have reasonably know) that I was released on parole on
6/25/2014 without any requirement of admitting the guilt or ever such treatment was
discussed prior to my parole release; defendant Kaufinan should not punish individual
parolee (i.e. me) when practicing a constitutional right of refusing to incriminate myself;
defendant Dakota Psychological Service LLC (municipal) should abstain from adopting
any unconstitutional custom of punishing individuals (i. e. me) when I invoked my right
of refusing to incriminate myself when I was parolee.
71 COUNT V:
All the allegations and defendants will remain the same. Plaintiff would add emphasis to
the allegations that defendants did not give me free community hours as parolee to enable
me challenge the parole modifications or any access to any library while on parole to
search for any legal materials that may help me doing so.
81 COUNT VI;
a) To add defendants those were already named as defendants in this case. Thereafter, the
named defendants in connect with this Count will be South Dakota Board of Pardons and
Paroles, South Dakota Parole Board Director, Parole Officer Supervisor, Parole Officer
and the treatment provider.

3

b) Defendants know or should reasonably have knowledge that my court records contain
allegations of convictions related to possession of child pornography and nothing else and
such like wide band of computer/intemet or smart-phone usage constitute unreasonable
restrictions and a greater deprivations to my First Amendment Right, noticing that the
Sentencing Court did not impose such like restrictions; was no such like in friy parole
conditions signed on 6/18/2014 and nothing have been changed to the records of my
convictions nor a parole violation was committed that may constitute such like modifications.
And I should not be punished to invoking my constitutional rights when on parole and
refused to incriminate myself Defendants also should know it is unconstitutional to harass a
parolee for invoking his Fifth Amendment.
8) COUNT VfT!
a)

The allegations against named defendants will remain the same.

b) Plaintiff respectfully prays to the Court to screen this Count under retaliations as
another claim beside what was found as denial of Access to Courts.
9) Additional request for relieves:
Beside what was mention in request for relieves in the Second Amended Complaint,
plaintiff pray to this Court to consider;
a) If this Court found that a relief against any named was barred by the Eleventh
Amendment/absolute immunity in their official capacity, plaintiff prays to this
Court to grant a relief in the form of injunctive/declaratory relieves since such
relieves not barred by the absolute immunity, and to find the my constitutional
rights were violated by the acts of named defendants for each Count/Claim.

4

b) Order each defendant to recognize the Federal Laws controlled under the
circumstances of my case, and not to make/adopt decisions that otherwise in
contrary to the United States Supreme Courts and to remained defendant(s) of the
(Supremacy Clause) in any in any future decisions related to revoke parole;
c) To abstain from any discriminatory/or any similar acts when treating non-U. S.
citizens who confined in State prisons and to be treated equally when there is a
mandatory programming related to own offences prior to initial parole date and not
to surprise individuals by such like programming months or years after their initial
parole under the threat of parole violations and thereafter be subjected to any all
consequences related to parole violations.
d) Expunge the records of my parole hearing held on March 13, 2017 as
unconstitutional in violation to my Due Process rights, and order defendant(s) to
recognizing my rights under the Fifth Amendment and not to honor a parole officer
decisions that may constitute a punishment on individual (i.e. me) when I refused
to incriminate myself.
e) Hold new parole revocation hearing within 30 days or any time that this Court to
be sufficient under those circumstances.
f) After such finding, plaintiff pray to this Court to order that (A state official who
acts unconstitutionally to be stripped of his official or representative character and
therefore should be subjected in his person to the consequences of his individual
conduct, and that the State has no power to impart to him/her any immunity from
responsibility to the supreme authority of the United States.
g) Order relieves on each defendants in there individual capacity.

5

10) Renew my motion to appoint attorney under the new circumstances of this Second
Amended Compliant.
11) Order any relieves that this Court may be find suitable against any and each defendants for
each claim/count under the circumstances of my case.

Respectfully Submitted,

Dated this

of September, 2017

Plaintiff Pro Se
Haider Salah Abdulrazzak, ID# 04373
Mike Durfee State Prison
1412 Wood St.
Springfield, SD 57062

6

HAIDER ABDULRAZZAK/ 2011-029262
Name andTrisoner/Boolcing Number !
MIKEDURFEE STATE PRISON
Place of Confinement1412 WOOD STREET
Mailing Address
SPRINGFIELD, SD 57062
City, State, Zip Code

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION

Case No. ($ 17*

HAIDER SALAH ABDULRAZZAK
(Full Name of Plaintiff)

05% ~k€Sj

(To be supplied by the Cleric)

Plaintiff,

CIVIL RIGHTS COMPLAINT
BY A PRISONER

vs.

DENNIS KAEMINGK
AARON MILLER
SD. BP, OF PARDONS AND PAROLES,
DOUG CLARK

Original Complaint
flFirst Amended Complaint
£2 Second Amended Complaint
Jury Trial Demanded

ROBERT DOOLEY, SUSAN JACOBS, KIM LIPINCOTT, J.C. SMITH, DUSTI WERNER,
DAKOTA PSYCHOLIGICAL SERVICES LLC., JOSHUA J. KAUFMAN. tflSE'P.VV

s

6^tv(EtSbMGRE& ERLAN&SctCMKfcON

(full Name of Each Defendant)

Defendants.

A. JURISDICTION
1. This Court has jurisdiction over this action pursuant toa. IE128 U.S.C. § 1343(a)(3); 42 U.S.C. § 1983
b. C|28 U.S.C. § 1331; Bivens v. Six Unknown Federal Narcotics Agents, 403 U.S. 388 (1971).
c. □ Other: (Please specify.)

2. Name of Plaintiff: HAIDER SALAH ABDULRAZZAK
_______
Present mailing 1412 WOOD STREET, SPRINGFIELD, SD 57062
address:
(Failure to notify the Court of any change of address may result in dismissal of this action.)

Institution/city where violation occurred: ALBERT LEA, MN; CHASKA, MN; SIOUX FALLS SD
CIVIL RIGHTS COMPLAINT
ner» mil

3.
•* i

Name of first Defendant: DENNIS KAEMINGK
SECRETARY OF CORRECTIONS

. The first Defendant is employed as:

_at SD. DEP'T OF CORRECTIONS.

(Position and Title)

This Defendant is sued in his/her:

(Institution)

E3 individual capacity
3 official capacity
(check one or both)
Explain how this Defendant was acting under color of law'
state employee.

4. Name of second Defendant: AARON MU I PR ______ • The second Defendant is employed as:
Policy Maker
at SD. DEPT OF CORRECTIONS
(Position and Title)

(institution)

This Defendant is sued in his/her:

individual capacity
IEI official capacity
(check one or both)
Explain how this Defendant was acting under color of law
State employee.

5. Name of third Defendant: SD. BD. of Pardons and parole • The third Defendant is employed as:
Parole services provider
at SD. DEP'T OF CORRECTIONS.
(Position and Tide)

(Institution)

This Defendant is sued in his/her:

EO individual capacity
3 official capacity
(check one or both)
Explain how this Defendant was acting under color of law'
. SD. DEPT OF CORRECTIONS AGENCY.

6. Name of fourth Defendant: DOUG CLARK __________ • The fourth Defendant is employed as:
SD. BD. OF PAROLES DIRECTOR
___at SD. DEP'T OF CORRECTIONS.
(Position and Title)

(Institution)

This Defendant is sued in his/her:

Ep individual capacity
® official capacity
(check one or both)
Explain how this Defendant was acting under color of law'
State employee.
(If yon name more than four Defendants, answer the questions listed above for each additional Defendant using the separate PDF
document called 1983 ADDITIONAL DEFENDANTS.)

B. PREVIOUS LAWSUITS
1. Have you filed any other lawsuits while you were a prisoner?

□Yes

g|No

2. Ifyour answer is “yes,” how many lawsuits have you filed? ___. Describe the previous lawsuits in
the spaces provided below.
3. First prior lawsuit:
a. Parties to previous lawsuit:
Plaintiff: __________________________
Defendants:
:

nsn m_i i

CIVIL RIGHTS COMPLAINT

Plaintiff: __
Defendants:
b

Court: (If federal court, identify the district; if state court, identify the county.)

c. Case or docket number:
d Claims raised:
e. Disposition: (For example: Was the case dismissed? Was it appealed? Is it still pending?)
f. Approximate date lawsuit was filed:
g Approximate date of disposition:
4

Second prior lawsuit:
a. Parties to previous lawsuit:
Plaintiff:
•
Defendants:
b

Court: (If federal court, identify the district; if state court, identify the county.)

c. Case or docket number:
d Claims raised:
e. Disposition: (For example: Was the case dismissed? Was it appealed? Is it still pending?)
f. Approximate date lawsuit was filed:_________ ■
g Approximate date of disposition:______ __
5

____

Third prior lawsuit:
a Parties to previous lawsuit:
Plaintiff: ____________
Defendants:
b

Court: (If federal court, identify the district; if state court, identify the county.)

c. Case or docket number:
d Claims raised:
e. Disposition: (For example: Was the case dismissed? Was it appealed? Is it still pending?)
£ Approximate date lawsuit was filed:
g Approximate date of disposition:
(If you filed more than three lawsuits, answer the questions listed above for each additional lawsuit using the separate PDF document
called 1983 ADDITIONAL LAWSUITS.)
CIVIL RIGHTS COMPLAINT
ncn At 11

€. CAUSE OF ACTION
COUNT I
1

2.

Count I involves: (Check ©ally one; ifyour claim involves

□Disciplinary proceedings
QExcessive force by an officer
□Medical care
pother: Parole Proceedings

v

more than one issue, each issued should be stated in a different count)

□Retaliation
□Threat to safety
□Access to the court

QExercise of religion

□Mail

□Properly

3. Supporting Facts: (State as briefly as possible the FACTS supporting Count I. Describe
exactly what each Defendant did or did not do to violate your rights. State the facts clearly in
• .-your own words without citing legal authority or arguments).
Defendmis, South Dakota Secretary of Corrections, SD Department of Corrections Policy
Maker (SD DOC Policy Maker), SDBoardofParolesandPardons (SD Bd. of Pardons and
.-*•
Pajolesiand SD Bd. of Paroleand Pardons Dimct6r^a$munidpaiiiies)^ AHo
ron?ie
c?s tc vhem ct//c^clc^cl
unCe’Asti
<yvV;trfe\ryav\o\

by

cr\Vta O.S, cozens,

mt.

PctfZ'i dp<itt U.9 StX
bfeftwwt c\y\<i to ckImX.^ <.\uAt
ie&\?5
into my initial parole release on 6%5M)i4. That
required me to iwriminate myselfas
parolee without any immunity under the threat orparole revocation and submitting me to all
the consequences that may come together with such revocation if I refused to do so since
unlike US. citizen parolee idon'thave that right In according to that act as well a parole
condition modifications and adding'more restrictions without due process for a reason not
related to commit an act ofparole violation rather than just due to my nationality as
punishment for temporary settlement with immigration authorities related to my immigration
knowing that I tvas still fighting my convictions in state Habeas Corpus proceedings and
such statements without immunity could hurt my case as well to bring new criminal Charges
JUbfl
., . did i ever discuss such treatment programs while confined in
pnson wails prior to my initial parole releasing, never inform me that in the future I will have
to take that treatment and in part to admit the guilt as they would do to U.S. citizens who
convicted under the same circumstances to enable me invoke my 5th Amendment in time
which may resulted in countenance for my confinement in state prisons without subjecting
me to the circumstances of parole revocation and its consequences.
South Dakota Department of Corrections (SD DOC) officials would discussany treatment
requirements related to once offense with U.S. citizens almost (
WW
initial parole date) to enable them to invoke their 5th Amendment it they aesired not to V ^
incriminate themselves.
In a preliminary hearing hold on 11/1512016 related to allegation ofparole violation related
to invoking my 5th Amendment, it was confirmed that as parolee, I have no right to 5th
Amendment and it was reaffirmed on the fined parole board decision hold on 3/13/2017.
The damage allegations related to this count is happen between tire period of time
(6/25/2014 -11/2/2016) while I was on parole due to the DOC policy related not to inform
me at eariier time (i.e. prior to my initial parole release) to enable me invoke my 5th and
prevent the consequences ofparole revocation.

" rP
c\ <)o pt^L / ciM"tV\oT{ ze s^cL co^tcry) \y€c^s^
')t VoijleL $${/■£. S£> Dec tfmef cnryy r*V^\c>iV)t^Wi ^rfe^mwvtyv^ *o VAt,
GdP&y&L M Pr/son ofid iQculd
Ls Uci&fen roe. o®y su^l <&Lt/iy»mt>s
&& Ijonl faWft-t ryy Fl^'W ^n\wAwv-%^.-( X6,lgz/5e tfit on $>c*VbU cmddfdat
u>lJkmMte v^i'o-vv Qttyjpw^/ 'mvvjy^e] -)Wy <u?o<.i /cL Jfafte, ^ by ^opft's-e. ^
fmytv&Jfar
vVe)qtl<£$avAfc
\<s dd^l^tqMi It)
w*c>4. Immunity. I)4Ms Hfkurlyias
v^J fttuz/cWs «fc -kfavs.
ttonpa^\^^ O^Vd'a^as^- M4w
we,“vV\sA q)^U VomU;ttcley^ &^;ts
«5pW^ lil^^ c^^Vjc^i^eitta^uW Mw'e-VVvW'lA'Vvty'
~ Oe?fncWfe.s '?<$toV^©as4 m^wtes <k’A vsot
^Wl -toy f;£ftw Anu*W&,
q>V\\i.
to hDC&vtnJte. YQyseff <*$ at)
tjf>flf«^ to ^4.
a&Pc*Ce>W *oWv\'Wisest to ctcW>’l-W.qvi''\t/ Mcjj-ijtii pb-eif Jvcis/or? to bs.
\wCsr\WWy to F-eat-frraf UaJs cmel (J.5» Sop^y*^ 5>cnr»t u) itbcwt aWo’iVW <My
'ftfl'Soias
St*A_ <d/Sey&mA'i$itc}r)d Mio\qC-fau) y*j y 0Ut pfiil££Sf>
o^itlBKiY^is^W/ ^£^t/^/ PfoHd/oTv C iaiv<-e,

^ \rnVvMv^s (-K prison-<kt^4oiv\V
wtass
^Kc^q^L ,4Wy -sWw v\A\Jvn

*• <» <•“•« "kStst -'«i~tcs2\tafete' *«
4. Imjjinry: (State how you have been injured by the actions or inactions of the Defendant^)).

/Swtol ^ e«t.4 4'^j
r.//

^vyjqj^LiWj'

v*jy Wil^ fce

«? bill Gs>f&aj£,y\

5. Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals
Is)
available at your institution?
□Yes G|no
b. Did you submit a request for administrative relief on Count 17
□Yes QNo
c. Did you appeal your request for relief on Count m to the highest level?
QYes □No
d. If you did not submit or appeal a request for administrative reliefto the highest level briefly
explain why you did not.
’
J

%>ms Ql/qj jjflle W P^V P^bC€gJll0s ■
Of you assert more than three Counts, answer the questions listed above for each additional Count using the separate PDF document
called 1983 ADDITIONAL COUNTS.)

fTVn. BIiChtc rmiTDT

atkpp

COUNTn
1. The following constitutional or other federal right has been violated by the Defendants):

Lt 15-\Mr * HiV A
2.

Count II involves: (Check oaly one; ifyour claim involves more than one issue, each issued should be stated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
□Medical care
[^0 Other: P&VbVp. filter

□Retaliation
□Threat to safety
□Access to the court

□Exercise of religion

□Mail

□Properly

3. Supporting Facts: (State as briefly as possible the FACTS supporting Count H Describe
exactly what each Defendant did of did not do to violate your rights. State the facts clearly in

Wales., fojfeVt BcdNcJ d i*fe<W1

StpHVi&sr t\>A

my
Defendants while I was incarcerated in MPSD did never at any time discuss suchlike
treatments or its requirements atany time as feey would do with other U.S. citizens who
incarcerated under the same circumstances of convictions as mine to enable me invoke my
5th Amendment which would result in contentions to my
prison until I flat mytime
without imposing the extra damages that may applied to me while on parole like parole
violation consequences which other US. citizens would hot face. Defendants also failed to
informed me as well that I would have to enroll in treatment related to my Offenses and its
requirements if I reach to any settlement with immigration authorities. Defendants also
provided me with parole agreements conditions that was signed on 6/18/2014 but they
failed as well to inform me that my parole conditions would be modified and adding more
restrictions and what kind Of restrictions will apply to me if I settle my immigration case while
on parole without the need of commlttingpardle violations Which would apply to regular U.S.
citizens on parole toenable mestudymyoptions attime prior to my initial parole release on
6/25/2014. Defendants usually would inform U.S. citizens about their treatment
requirements almost 6 months prior to their release on their initial parole date.
4. Injury: (State how you have been injured by the actions or inactions of the Defendants)).

rtHmiVcta'on,

tW&UU exMotteud
jacket f\o)5 piMeliv^,
sm*

\H dU.fi

^il|« ks> aW!| G>ikdti°'A

5. Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals)
available at your institution?
□Yes EgjNo
b. Did you submit a request for administrative relief on Count II?
□Yes □No
c. Did you appeal your request for relief on Count A to the highest level?
□Yes □No
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not.

CIVIL RIGHTS COMPLAINT

. COUNTm
1.

The following constitutional or other federal right has been violated by the Defendants):
&

2.

Count in involves: (Check only one; ifyour claim involves more than one issue, each issued should be stated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
□Medical care
HOther:

□Retaliation
□’Threat to safety
□Access to the court

□Exercise of religion

□Mail

□Property

3. Supporting Facts: (State as briefly as possible the FACTS supporting Count III. Describe
exactly what each Defendant did or did not do to violate your rights. State the facts clearly in
your own words without citing legal authority or arguments).
/ have been on parole since 6/25/2014 without the requirement of admitting the guilt since it
was never discussed with me by the MPSD unit staff at any time prior to that date and no
treatment requirements ever discussed with me. However, upon temporary settlement with
immigration authorities in a civil case while on parole and upon continuance to rhy parole
plan in Unit Casa CTP (Community Transportation Program) parolee on 4/20/2016 my
parole officer (Dusti Werner) on 4/29/2016 modified my parole condition by adding more
restrictions to my Original parole agreement Which was signed on 6/18/2014 without a Due
Process as punishment to that temporary settlement with immigration authority since I did
not commit a parole violation or new offenses the reasons usually applied to U.S citizens
parolees. My parole agent as well ordered me to engage in a treatment proceeding and in
part to admit the guilt to my original convictions (almost 2 years into my initial parole in
6/25/2014). I informed my agent at time that as parolee I am not going to incriminate myself
and give any statements that could be use against me to support a conviction Or to be used
to bring new criminal charges (i.e perjury) since I had at time my Habeas Corpus
evidentially hearing without any kind or express immunity. I did never as well promised my
agent that I am going to admit the guilt at any time in the future.
My parole agent know or should reasonably have know about the DOC policy discussed in
Count I should constitute a parole violation, nevertheless, she made me pay ($ 380.00) for
my work permission that I borrow in a good faith that I will pay back and my parole would
not be violated for the reason of not admit the guilt and that I have liberty interest in be free
from committing any parole violation.
My parole agent (Dusti Werner) kept ordering me to admit the guilt together with the
treatment provider in each visit to to the parole office. She knew about my mental disability
(PTSD) and purposefully she deprived me access to in community recover program led by
trained individuals associated with NAMI Sioux Falls (National Alliance on Mental Illness) at
no cost to the DOC conditioning justjoin by incriminating myself, in violation to my 1st
Amendment and Title II of Americans with Disability Act (ADA).
My parole agent as well deprived me free community hours to do my laundry in summer
time exposing me to my bodily waste and wearing my dirty laundry for multiple times
knowing that I would ride my bike or walk every time I am outside the unit.
Even that, she did not file my parole violation report until 11/2/2016 on or about the same
week I received my work permission for the reason of refusal to admit the guilt, causing me
extra damages in part paying for GPS monitoring ($ 1,190.00) that was forward now to a bill
collection agency, and other fees that prisoner would not face while confined in prison walls
My parole agent informed me that "it is not fair that I did not plead guilty to my offenses and
walk free in streets and work while there were other parolees who plead guilty to their
r*cr\ mu

CIVIL RIGHTS COMPLAINT

offenses and walk free as well on streets. She told me as well that I have no right to be on
parole and that she can violate my parole anytime.
My parole agent supervisor (defendant J.C. Smith) agreed with that decision suggesting as
well that I would not be considered on parole until I admit the guilt and to pass a polygraph
exam to prove I did not commit the original offenses and to pay for any future treatment
programs because I received my work permission, knowing that my permission would be
expired on October 2017 unless was renewed 90 days prior to that expiration date and pay
other ($380.00) fees which most likely I would not find someone to brow from since I did not
pay for the first.
(j) Defendants know or should know that the conditions of admitting the guilt was imposed on
me 2 years after my initial parole only due to my nationality and no other reasons, and that
participatbn in discriminatory act base on my nationality reasonably violate my rights that
was granted to me by the constitution.
-nM.................................
'©5.
hm
m e pajo h1f 2&I6 b/
or>5t •Dttn’J'
(nartoiiwk
4

^1/
W tQftU A

A*a/kntfet)s 4vy&AmJML
Vt <01

3© 1% v/ohty<fo -tpy tensk’shuinsivil t^V^s

U dlc\Ju

pwbl-te.

hy fftyul fen0 W OWil dsMVW^iW

JtyiUl

4. Injury: (State how you have been injured by die actions or inactions of the Defendants)).

€/»Ws.Mmnt, Mental

evwfcwi

e r'r'A'f'o„t4spWi,y,UvkA

5. Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals)
available at your institution?
□Yes E(No
b. Did you submit a request for administrative relief on Count HI?
□Yes QNo
c. Did you appeal your request for relief on Count HI to the highest level?
□Yes QNo
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not

MoQtfo\tebM£. Ws

table W P<W&\e. pvbcsgjli

(tt you assert more than three Counts, answer the questions listed above for each additional Count using the separate PDF
called 1983 ADDITIONAL COUNT&)

CIVIL RIGHTS COMPLAINT
TVflT> At

1 t

D. BEQUEST FOR RELIEF
State briefly what you want the Court tp do for you.
1)To appoint counsel pursuing to 28 U$&§ I9i5(e)(1)diie to the special circumstances on my
base; 2) Allow me to amend once counsel appointed to me and/or to correct any deficiencies in
my claims; 3)Declaratoryjudgment that my constitutional rights had been violated; 4)
Declaratoryjudgment related to non U.S. citizens [paroless right under 5th Amendments arid
14th Amendment as well;5) Preliminary and permanent injunctions to prevent any such
violations against me and/or other non U.S. citizens parolees; 6) To order nominal,
compensatory and punitive damages reliefs for each count, each violation and against each
defendant separately; TjAttomey fees pursuing to 42 U.S.C.§1988 (b)j$)
I declare under penalty ofperjury that the foregoing is true and correct,

Executed on

^

loll
DATE

SIGNATURE OF PLAINTIFF

(Name and title or paralegal, legal assistant, or other
person who helped prepare this complaint)

(Signature of attorney, if any)

(Attorney’s address & telephone number)

ADDITIONAL PAGES
All questions must be answered concisely in the proper space on the form. If needed, you may attach
additional pages. The form, however, must be completely filled in to die extent applicable.

CIVIL RIGHTS COMPLAINT

ADDITIONAL DEFENDANTS
£ Name of fifth Defendant:
Mike Durfee State Prison

ROBERT DOOLEY

The fifth
Defendant is employed
at SD Dep’tof Corrections

(Position and Title)

This Defendant is sued in his/her:

(Institution)

El individual capacity

13 official capacity
Explain hbw this Defendant Was acting under color of law^^ ^ °T
State employee.

C Name of

sixth

Defendant:

SUSAN JACOBS

Deputy or Associate Warden

The sixth

Defendant is employed

at SD DOC Mike Durfee State Prison

(Position and Title)

(Institution)

This Defendant is sued in his/her:

£3 individual capacity
03 official capacity
("check one or both)
Explain how this Defendant was acting under color pf law;

7- Name of seventh Defendant:
Unit Staff Member

KIM LIPPINCOTT

The Seventh Defendant is employed
at SD DOC Mike Duriee State Prison

(Position and Tide)

(Institution)

This Defendant is sued in his/hen

13 individual capacity
3 official capacity
(check one or both)
Explain how this Defendant was acting under color of law'
State employee.

0. Nameof eighth Defendant:
Parole officer supervisor

J.C. SMITH

. The eighth Defendant is employed
at SD^BD. of Pardons and Paroles

(Position and Title)

This Defendant is sued in his/her:

(Institution)

13 individual capacity

03 official capacity

(check one or both)
Explain how this Defendant was acting under color of law
State employee.

ADDITIONAL DEFENDANTS

% Name of ninth Defendant:
Sr. Parole Officer

DUSTI WERNER

. The ninth

Defendant is employed

at SD. BD. of Pardons and Paroles.

(Position and Title)

(Institution)

This Defendant is sued in his/her:

E individual capacity
El official capacity
(check one or both)
Explain how this Defendant was acting under color of law:
State employee.

10• Name of tenth Defendant:
Psychological Services Provider

• The thenth

Defendant is employed

at Dakota Psychological Services LLC

(Position and Title)

(Institution)

This Defendant is sued in his/her:

E individual capacity
E official capacity
(check one or both)
Explain how this Defendant was acting under color oflaw:
Contractor with SD DOC and cooperative conductor.

11. Name of eleventh Defendant: JQSHUA J- KAUFMAN . The eleventh Defendant is employed
Licensed psychiatrist
at Dakota Psychological Services LLC
(Position and Tide)

(Institution)

This Defendant is sued in his/her:

E individual capacity
E official capacity
(check one or both)
Explain how this Defendant was acting under color oflaw:
contractor, provide mental treatment to state ParoleesAnmates (Sex Offender) through
cooperation and conduct fairly attributed to the State of South Dakota.

t% Name ofDefendant:!:SlEJUffij/cM A

• ThetiO^V Defendant is employed

(Position and Title)

(Institution)

This Defendant is sued in his/her:

E individual capacity
gj official capacity
(check one or both)
Explain how this Defendant was acting under color oflaw:

Sixfc
)

AThTtmOlSTAf. ITWETPftnn!A■RJTra 17/HiTO iOTOVT ©Timorr**? -n/vn-tnMr

A ¥TMTT<

ADDITIONAL DEFENDANTS

13, Name ofW-tv^Pefendant: &BERTH EX S 0 N

iCcflTechi <svva\ d$k

at

The j3~B\ Defendant is employed

A-VktkVtil

(Position and Title)

IVft t

\rtt?y •

(Institution)

This Defendant is sued in his/her:

Ml individual capacity

official capacity

(check one or both)
Explain how this Defendant was acting under color of law:

S-bfk

Qsm-tdioils,

/ty. Name of^afW& Defendant:
St), fofiyVs IvL
’

F.rlrtTt

M-EVaWv

U)

___ . The^ysff^y ^Defendant is employed
at ^iN- ^ftYhW fie<avv>L______

(Position and Title)

This Defendant is sued in his/her:

*

(Institution)

@0 individual capacity

official capacity

(check one or both)
Explain how this Defendant was acting under color of law:

St*t« Wv^oyee

)J>. Name of
St^ > PaffeW

^ (bwAvcWS.

Defendant: Mnfbfl Rq U

__. The^£rSaA<^* Defendant is employed

A^f(2)____ at

tXwfrU fiaavtnj,

(Position and Title)

This Defendant is sued in his/her:

(Institution)

(§3 individual capacity

£§] official capacity

(check one or both)
Explain how this Defendant was acting under color of law:

S Me
4. Name of

G>rxMi rpf\s
Defendant:

. The

Defendant is employed

at
(Position and Title)

This Defendant is sued in his/her:

(Institution)

□ individual capacity

□ official capacity

(check one or both)
Explain how this Defendant was acting under color of law:

ADDITIONAL DEFENDANTS FOR CIVIL RIGHTS COMPLAINT

ADDITIONAL COUNTS
COUNT \\/
1.

The following constitutional or other federal right has been violated by the Defendants):

2.

Count IV
__

involves:

(Check only one; ifyour claim involves more than one issue, each issued should be stated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
QMedical care
Poilfble,
pother:

□Retaliation
□Threat to safety
□Access to the court
tiff c.

□Exercise of religion
□Mail
□Properly

3. Supporting Facts: (State as briefly as possible the FACTS supporting Count t \/
Describe exactly what each Defendant did or did not do to violate your rights. State the facts clearly in
your own words without citing legal authority or arguments).
Defendant JushuaJ. Kaufman MA-LPC contracted with SD DOC through municipal Dakota
Psychological Service LLC td provide psychological treatment to State paroleesfmmate in
Sex Offender treatment program either in his ciinic or Parole office in Sioux Falls, SD. He
know or should know that I was released on parole on 6/25/2014 without the requirements
of admitting the guilt since there was no treatment agreement was signed on or prior to that
date. Defendant know or should know as well about the important of admission the guilt in
any treatment proceeding. Defendant fail as well to make any visit with me while I was
confined in Mike Durfee State Prison to discuss any issues related to treatment
requirements prior to my initial parole date, rather he stat doing so almost 2 years after my
initial parole (after4/20/2016) and the Only reason for that is because of my nationality
(Iraq). Even so, I did never promised him that in any time in the future I am going to
incriminate myself without immunity that such statement would not be used against me in
my pending Habeas Corpus evidentially hearing, not to be used against me in case of
granted new trial and not to be used against me to bring new criminal charges. Defendant
as well agreed and supported the parole modification that my parole officer did due to my
nationality and not because a parole condition was violated. Defendant know as well that
my expenses as parolee is much higher than when I was confined in prison walls and
reasonably extra fees would apply on me. Nevertheless the treatment provider did not take
any steps to terminate me from such like program until 10/19/2016 when he required me to
take a polygraph exam related to my offenses where I invoked my 5th Amendment as well'
(not related to parole condition violation) and until 10/31/2016 for the reason of refusing to
incriminate myself and invoking my 5th Amendment.
Defendant together with parole agent (Dusti Werner) target was to get admission to be used
against me in a court of law to provide some technical support to the prosecution applying
all Kinds or coercive method and mental distress to reach to that target before finally
terminating me from the treatment program, in doing so in part, he denied me access to any
sources that may provide me with a legal assistance, while on parole since I was not able to
use the prison legal assistance individuals due to my status as parolee and to use the
Internet in my search for a legal assistance, he deny me to create email or to use his email
when I apply forjob under his supervision unless I admit the guilt suggesting to me to find a
fob in trash fields because I am a sex offender. He kept as well the GPS monitor on me
although I passed the 1st and 2nd polygraphs, the conditions usually apply to remove such
device and conditioning it in my case to admit the guilt which cause a bill to built up of ($
1,190.00) that was fon/vard now to a bill collection adding more damages to me.
Defendant is licensed psychological who know the important of recovery programs to
ADDITIONAL COUNTS FOR CIVIL RIGHTS COMPLAINT FORM

••• ••

■

people with mental disability (PTSD) like myself, however he denied me access to a
recovery program held by trained individuals associated with (NAMI Sioux Fails"National
Alliance on Mental Illness") condition such joint to admit the guilt using my mental disability
any depriving for recovery programs as methods to gain such confession causing me more
serious mental damages, violating both my 1st Amendment and title II ofAmerican with
Disability Act ("ADA") without showing any interference reasonably related by legitimate
panel interest.
Defendant as well agreed with parole agent to deprive me community hours to enable me
do my laundry making me wearing my dirty laundry multiple times. The damages associate
with the treatment provider extend between the time (6/2&2014 -10/31/2016) making me to
relive a trauma related to my Pt$D.

Af y PcweV G&ntViWns

e>^ sop^x)

mg.

d)ds wm- v^WfSveL on
^ o^y.•

GIZSvH

JJscosbty cwy ty&dwyft
shoo lei hnoiO i bu)ae o n&y) st&'un}
to /dtrin'jrurU.
^>aVxota ?syche\o^6n| Sw/iceS sW\Ul wki adopt
Custom
m#y p^niiW we.d)y S fi*t pqnolee..
4. Injury: (State how you have been injured by the actions or inactions of the Defendants)).

l^cot WtUa,

m<iit (mvbs\. md

hddsii/p, oui+%. ^ocWt wxc^y

AivVj

i

VW ^vAy>

WlU be^tajU £s>

5. Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals)
available at your institution?
QYes I^No
b. Did you submit a request for administrative relief on Count
?
□Yes QNo
c. Did you appeal your request for relief on Count
to the highest level? QYes QNo
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not

V

a rvnrrv/vAT a t

rtATTAwe »An

att

avkteJ^.

- :.r.

ADDITIONAL COUNTS
COUNT %T
1.

The following constitutional or other federal right has been violated by the Defendants):
.v5

2.

Count

involves:
(Check only one; if your claim involves more than one issue, each issued should be stated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
□Medical care
□Other:

□Retaliation
□Threat to safety
[^Access to toe court

□Exercise of religion

□Mail

□Property

3. Supporting Facts: (State as briefly as possible toe FACTS supporting Count V
Describe exactly what each Defendant did or did not do to violate your rights State toe facts clearly in
your own words without citing legal authority or arguments).
Defendant Parole agent Dusti Werner know or should know that I was still working on my
immigration case when / came back to Sioux Falls since the unit staff at (SDSP) emailed
her. She know about my need to my paper documents and to have access to digital
informations stored in CD and they kept away from me as well no access to any stationary
materials due to my status as (detained). Thai CD contain as well information related to my
current pending for evidentially hearing at time Habeas Corpus motion related to my original
convictions. My parole officer did nothing to grant me access to those documents to enable
me meet the dead line of filing motion With the Board of Immigration Appeals and another
appeal with the 8th Cir. Court as well for issues related to granted me the status of
Permanent Resident of the United States. She met me first time only on 5/10/2016 just four
days before the dead line and I explained to her that she gave me no sufficient time to write
my arguments and to file them related to my immigration case and I need as well to be
granted access to my digital information and an access to a computer to enable me edit my
documents before filing them since English is not my 1st language, my parole officer deny
me access to any computers to be included the prison computers or library or even to grant
me a free community hours to enable me find a trust worthy place to enable me use their
computers claiming at time she do not want me to have any access to any computer with of
without interment causing me missing the dead line forming.
My parole officer as well modified my parole conditions without due process due to my
nationality as non-U. S, citizen. I asked my parole agent to grant me free community hours
to enable me find legal assistance to challenge those modification and her countenance
ordering me to incriminate myself and my 5th Amendment rights as parolee and there are
any arbitrary in those modification of Ex Post Facto law. The prison legal assistance would
not be able to help me due to my status as parolee and the issues I am challenging is not
related to confinement in prison walls. My parole agent claimed that she would give me free
time only for treatment or search for work and she would not give me any free time to
challenge the issues related to those modifications. I was able one time to talk to one of her
supervisor in her present and the treatment provider which he sustain as well my parole
officer and the treatment provider to admit the guilt although he know that was only because
my citizenship and they would ask so from U.S. citizens prior to there initial parole release.
On my last visit to my parole agent office in Sioux Falls, I asked again to meet with her
supen/isor which she denied claiming it is unnecessary for me to do so and she had no time
to do so.
Both my parole officer and the treatment provider denied me as well access to the Internet
ADDITIONAL COUNTS FOR CIVIL RIGHTS COMPLAINT FORM

while on parole to enable me search hr legal materials that may help me in a way or other
in my cases or even to have an emeii undertheirSUpervisionto search ’fora job
conditioning all those access to incriminatemysetiaspdrolee. rriy parole officer also
conditioned any use to a computer to Write any0rnyjdgtil argument to have someone
(trust worthy by tier to Watch Wh$t I arh writing iti Cffice Weird document (even if the
corhputer was noi connected to itie interrtieni).
My parole agent and the treatment provider both knqW dr should know that the constitution
grant me a meaningful accees to courts and ihattheyshduldridtlegally hinder my ability to
access to the courts and that they should noi use such deprivation to harass a parolee to
gain involuntarily confessions to provide any kinds of tactical support to prosecutions.
4. Injury:. (State how you have been injured by the actions or inactions of the Defendants)).

HawvvWUdrv

mi

\<m\j

WtlsVip,©tft

%sfi

Vm.
• ■

*

5. Administrative Remedies:
a. Are there any aditiinistrative remedies (grievance procedures or administrative appeals)
□Yes |^No
available at your institution?
b. Didyou submit arequest for administrative relief on Count 1X ?
^Yes □No
c. Did you appeal your request for relief on Count
to the highest level? QYes QNO
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not

ADDITIONAL COUNTS FOR CIVIL RIGHTS COMPLAINT FORM

ABBITIONAL COUNTS
COUNT f//
1. The following constitutional or other federal right has been violated by the Defendants):

' f&k* sUu
2. Count

at ftklmjiJkg.

involves:
(Check only onfc; ifyour claim involves more than one issue, each issued should be stated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
□Medical care
®°ther:
fjdfblg.

□Retaliation
□Threat to safety
QAccess to the court

□Exercise of religion
□Mail
□Property

3. Supporting Facte: (State as briefly as possible the FACTS supporting Count Vl
Describe exactly what each Defendant did or did not do to violate your rights. State the facts clearly in

Process just because lam mam, citizen who wasgranted temporary relief horn
immigration, adding more resirictionswiihputdnySpecific redson beside the one listed
above. The msuit was losing liberty interestinprivilegesAights granted to me
g-rfc. GV. G&f[ tUciA\£fv5;. in part, I lostaccessto my smartphone whichI paid for prior to
those momications wnenthere was no restrictions to operate such lands ofphones causing
outofpocket money ioss and family hardship since without reason I was deprived video
visitation with my elder parents who live by themselves in New York and never able to see
me due to doctors recommendations due to there serious medical health and never was
apletq seethem since i fleemycountry or to communicate with mysister which she still
live in my home counpy (Iraq). I was deprived as well having access to any media in my
oym language (Arabic-lraqjmakingeven my meritai health more Sever while on parole.
Defendants also did not allow me to call my niece which she live in Iraq and when I left Iraq
(2008) she was almost 3 years old until she turn 18 years old or to incriminate myself by

/ k®**

^^.cindsuclx

4. tejury: (State how you have been injured by the actions orMotions of tixe Defendants))

5. Administrative Remedies:
a Are there any administrative remedies (grievance procedures or administrative appeals
is)
available at your institution?
PI
Yes ^No
□Yes
b. Did you submit a request for administrative relief on Count Vt ?
□Yes DNo
c. Did you appeal your request for relief on Count
to the highest level? QYes □No
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not.

,v«UUV P«hW ptecsd-Vkmvm

ADDITIONAL COUNTS

COUNT VU
1•

2.

following constitutional or other federal right has been violated by the Defendants):

Count

involves:
(Check only one; ifyour claim involves more than one issue, each issued should (restated in a different count)

□Disciplinary proceedings
□Excessive force by an officer
□Medical care
□Other:

□Retaliation
□Threat to safety
E^lAccess to the court

□Exercise of religion

□Mail

□Property

3. Supporting Facts: (State as briefly as possible the FACTS supporting Count
Describe exactly what each Defendant did or did not do to violate your rights. State the facts clearly in
your own words without citing legal authority or arguments).
Defendants Correctional Officers in charge of myParolee property
inventory at South Dakota State Penitentiary (SDSP, Sioux Falls),
both caused my parolee property in the Outside locker at Unit C
to be lost when Iwas parolee housed there between (4/20/2016 11/2/2016) to be:included but not limited to (back bag, cellphone
, cellphone charger, and a USB memory flash drive).
My parole agent (Dusti Werner) knowssabout that I stored my legal
information in that flash memory drive. She offered me onetime (
her help when I was detainee to grant her access to all my
digital stored legal information to brint them for me in her off­
ice), which I refused.
Correctional Officers work for the state and reasonably know or
should know about the existense of that flash memory drive in my
back bag in my outside locker(and would resonably bluged it into
a computer to know what materials stored there), cdtiSSd intenion^t
ally to loss that memory drive to hinder my ability to continue
fight my immigration case to enable the government to deport me
back to my home country (Iraq) so the state can close my Habeas
Corpus petition related to my origenal convictions since it would
cont..
4. Injury: (State how you have befpy^ed-bythe actions or inactions of the Defendants)).
Humiliation, embarrassment, mental and emotional distress, loss m
apportunity of aceess to any of my legal materials stored in that
memory drive to modify for habeas corpus and legal immigration casQ5. Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals)
available at your institution?
IgYes □No
b. Did you submit a request for administrative relief on Count\/It ?
§2Yes QNo
c. Did you appeal your request for reHef on CountVl£ to the highest level? [gjYes □No.
d. If you did not submit or appeal a request for administrative relief to the highest level, briefly
explain why you did not

ADDITIONAL COUNTS FOR CIVIL RIGHTS COMPLAINT FORM

MOTION TO AMEND § 1983 CIVIL ACTION BY ADDING NEW COUNT AND
ADDITIONAL DEFENDANTS
COUNT vn
3. Supporting Facts: (cont.)
uncover a possible unconstitutional actions committed by the State during my trial in June 2011,
and to enable the State as well to have access to my Pro Se digital stored information inside that
flash drive in details arid other arguments related to both my immigration and pending Habeas
petition as well communications between me any attorneys and other legal service providers.
Unit C officials would impose more restriction standards inside those parolees lockers’ room,
doing as well routinely inspections for any contrabands and would write disciplinary report
against and parolee (or other individuals) who forget to lock their lockers using locks provided
by the Unit Staff.
My property stored inside that locker was not purchased through out the commissary provided
to regular inmates who sentence to serve rather than it was property I was allowed to possess due
to my status as parolee equally to any free citizens in streets. Those lockers were separated from
the inside prisoners lockers. At no time, I forget my locker unlocked. The only personals who
may have access to my locker were the unit staff using a master key.
Those and other special circumstances surround the loss of my legal materials stored in that
USB flash drive, such as my first habeas hearing was hold on 9/20/2016 at which I testified
regarding grounds it was agreed with my attorney to proceed with them Pro se and the court have
a acknowledge previously about those arguments (not included in my attorney arguments) which
I was working hardly on them for more than two years while I was on parole and stored them
there. My parole agent filed the allegations of my parole violations on 11/2/2016 which then
caused me to be detain again in a Super Maximum prison (Jameson Annex) for thirty days
without any access to any of my paper legal materials or to any stationary items(almost six
weeks before my second hearing which held on 12/13/2016) noticing that the prison officials
although they prepared the inventory on (10/28/2016) they failed to notify me about my property
until they resign it on (4/4/2017).
On the first habeas evidentially hearing, the State Attorney was struggled in finding
witnesses/evidences for their own defense after my Pro Se testimony in connection with the
grounds I prepared myself on the stand. On that day, the State requested a continuance to enable
them find or subpoena witnesses (i.e. my second public defender (which I fired her before my
trial start). The Court granted a continuance until (10/25/2016) when the State requested for
another continuance because their witness was not ready to testify (although she was informed
almost a moth earlier). While doing that, the State and my parole agent insisted that I must take
the polygraph related to my original offences just one day prior to (10/25/2016) without any
prior notification and with parole agent privies knowing that I did not want to take that exam at
time very close to my hearing. My parole agent droved me herself to the location of that
polygraph, and then shortly to violate me for invoking my Fifth Amendment.

V3

Supporting Facts (Count VH) (Cdnt)s
It make no sense that my USB flash memory drive would be accidentally (lost or stolen)
' without the staff consent since those Officers reasonably would be the only people who
Would have access to my outside locker, taking in consideration that the lost was
selective in nature, there was a brand new bike light set was taking off my back bag
before that bag stolen, and there were other more precious items stored in that outside
locker that was never stolen or (missed) at anytime, and the allegations of the missing of
my legal materials happened only after my challenge to the state authority and detaining
me for that reason, and no one would be able to use my back bag due to the new policy of
only using clear or mesh bag bags.
The state officials caused intently and purposefully the lost of my legal materials that I
worked hardly to collect and write for more than 2 years while on parole and without the
need of extra assistance from the State to deprived hie access to those materials to disable
me proceeding any challenges to the state authority after invoking my 5th Amendments
and challenging the state illegal practice of deprived me my 5th Amendment and refusal
to incriminate myself as parolee as Well my Pro Se Habeas Corpus and other motions and
communications in connect with my immigration case so I cannot proceed any further in
any civil actions cases on my own defense.
Respectfully Submitted..
Haider Salah Abdulrazzak
in RE: CIV 17-4058

3-3

LMjSsuI SWWs’pisWlct Gctt

Distal d ^ ^Avhcfeotci
SovAwv tWlS (csT\
VlAfcek SMAH ABbULfcA^k

i ai/.(4nixt/.oqo9g-kEs)

?Ufc$
\A

I

. J.c Smith et A,

MOTbN lb mtkL

j

C&PteS
ftVxliifatzqK ft'bCee^to tVfe Se. ^Xe.'W^/A&aciOv
to PfaJ bb'fys Q)uA 4 pfo^/Jk ojtyf aVqAq^k ^utAe.-\W\^ .

^ ^sm\ctof£ 4 t%] L kU-^ms of ^) *ftyccL vA^y W\^ to
o|pp^l tks GsoA (hds’ioTi

■Bie ;?/fcM m^U, Gb
^iaVit)

dn tb^c. 12, 2®n Q^^AtVV^

,

irJtettol ^Ti (s Aui 4* c/pp^al ^-ddismi^ei clexVG

PfcAJ J/smvssL^ cUvias *tJ*S^cUwU-

ckt\t kf\o^

tKetvTA^A if iDmL ckd$>k fl Is lWf\tdk^ qfpe?(c/kW dC^Vou\t
CK'JdaA
fiwi^V®l \v\ c\ll"SW
oth)^ ont.l|

c)ec^\ m wJe

Akkiof) 4 toAsjekT 0<Ac^

beC*fgs'Ml\

R^s^ct^lly s.oWMaL
Ttfti&l'fhk £if«Og>, 2.0(1

AWul'fesqk
Mbs?'IbTf-X/J73

i472ibc^ s4**t
Sp6y$&\(^b 5io&2

APPENDIX

